EXHIBIT 1

IN THE UNITED STATES DISTRICT COURT
FOR THE.EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D

)
)
Petitioner,
)
)
-)
)
)
)
Respondent. )

UNITED STATES OF AMERICA,

v.
OLIVER LEE WHITE,

ORDER

Oliver Lee White ("White" or "respondent") is a 30-year old Native American man with
intellectual disability. Three times in the last trine years, federal grand juries in the United States
District Court for the District of Montana have indicted White and charged him with sexually
assaulting numerous female children.. In the first case, White and the United States entered a pretrial
deferment agreement. In the latter two cases, doctors examined White and determined that he was
not competent to stand trial due to his intellectual disability and that White could not be hospitalized
pursuant to 18 U.S.C. § 4246. In each case, the District of Montana dismissed the criminal charges
without prejudice.
On August 30, 2017, the United States certified White as a sexually dangerous person under
18 U.S.C. § 4248. See [D.E. 1]; see also [D.E. 2]. OnDecember20,2017, White moved to dismiss
the proceeding under 18 U.S.C. § 4248 and, alternatively, for a competency hearing to determine
whether White is competent to proceed in his civil commitment hearing under 18 U.S.C. § 4248.
See [D.E. 37].
On May 14, 2018, Magistrate Judge Gates issued a Memorandum and Recommendation
("M&R") and recommended that the court deny White's motion to dismiss and alternative motion

Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 1 of 9

for a competency hearing [D.E. 58]. On May 29, 2018, White objected to the M&R [D.E. 65]. On
\

June 12,2018, the government responded to White's objections [D.E. 69]. On June 18,2018, White
filed a motion to hold discovery in abeyance pending the court's ruling on the M&R [D.E. 70]. On
June 25, 2018, the government responded in opposition [D.E. 73]. On June 25, 2018, White replied
[D.E. 74].
The court has reviewed the M&R, the record, and White's objections de novo. See Diamond
v. Colonial Life & Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005); 28 U.S.C. § 636(b). As
explained below, the court declines to adopt the M&R and grants White's motion for a competency
hearing. Before that hearing takes place, the court orders an examination of White under 18 U.S.C.

§ 4247(b) in order to determine whether White is presently suffering from a mental disease or defect
rendering him mentally incompetent to the extent that he is unable to understand the nature and
consequences of the proceedings under 18 U.S.C. § 4248 against him or to assist properly in his
defense. Following the examination, a report shall be filed with the court and copies served on
counsel for White and the United States Attorney and White's guardian ad litem. See 18 U.S.C. §
4247(c). The trial <;late ofNovember 29,2018, is postponed. Instead, on NoveD?-ber 29,2018, the
court will hold a competency hearing. Pending the competency hearing, the court denies without
prejudice White's motion to dismiss. The court denies in part White's motion to hold discovery in
abeyance, but relieves White from being deposed or responding to written discovery.

I.
On May 26, 2009, a federal grand jury sitting in the District of Montana indicted White and
charged him with four counts ofaggravated sexual abuse of a minor. See [D.E. 3 7-5]. On December
22,.2009, the United States moved to dismiss the indictment without prejudice after entering into a
pretrial deferment agreement with White in which the United States deferred prosecution for two
2

Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 2 of 9

years. See [D.E. 37-6]. Pursuant to the deferred prosecution agreement, White was to reside with
his mother, Peggy White, and have no contact with minors. See id. On December 22, 2009, the
. District of Montana dismissed the indictment without prejudice. See [D.E. 37-7]. The court
released White to his family.
On April18, 2012, another federal grand jury in the District of Montana charged White with
'-

four counts of abusive sexual contact with minors and two counts of attempted abusive sexual
contact with minors. See [D.E. 37-2]. White's mother, Peggy White, and her partner, Susan Kelly,
were named as co-defendants and charged with misprision of felony. Id. White's criminal defense
attorney requested a competency examination for White. See [D.E. 37-4].
On May 30, 2013, doctors at FMC-Butner concluded that White lacked a rational and factual
\

understanding of the criminal charges and proceedings against him and could not assist in his
defense. See [D.E. 37-8] 4-6. The Honorable Donald Molloy requested an evaluation of White
under 18 U.S.C. § 4246. See id. at 4. On September 11, 2013, doctors at FMC- Butner concluded
\

that White's mental condition would not create a substantial risk of bodily injury to another person
or serious damage to the property of another. See id. at 4-6. Thus, White should not be committed
under 18 U.S.C. § 4246. On October 7, 2013, Judge Molloy ordered that the six criminal charges
against White be dismissed without prejudice unless the United States objected. See [D.E. 37-10].
On October 10, 2013, the United States moved to dismiss the criminal charges against White without
prejudice. See [D.E. 37-9]. Judge Molloy released White to his family. See [D.E. 37-10].
On July 22, 2016, another federal grand jury in the District of Montana charged White with
aggravated sexual abuse of a child and attempted sexual abusive contact with a child. See [D.E. 3711]. On September 28, 2016, the Honorable Susan B. Watters ordered White to be evaluated in
order to determine whether White was competent to stand trial. See [D.E. 37-12].

3

Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 3 of 9

On November 28,2016, the medial evaluator concluded that White was not competent to
stand trial. See [D.E. 37-13]. On January 11, 2017, Judge Watters conducted a competency hearing
and ordered that White be evaluated and that attempts be made to assist White in attaining
competency. See [D.E. 37-14]. If competency could not be restored, Judge Watters ordered the
facility's director to file a certificate pursuant to 18 U.S.C. § 4246(a), stating whether White is
presently suffering from a mental disease or defect as a result of which his release would create a
substantial risk of bodily injury to another person or serious damage to property of another. ld. at

2.
On July 26, 2017, the BOP evaluators opined that White did not meet criteria for civil
commitment under 18 U.S.C. § 4246. See [D.E. 94] 18. However, during 2017, BOP evaluators
also evaluated White under 18 U.S.C. § 4248 and prepared a report dated August 18, 2017. See
[D.E. 10-1].
On August 30, 2017, pursuant to 18 U.S.C. § 4248, the United States filed in this court a
Certificate of Sexually Dangerous Person concerning White [D.E. 1]. In its certification, the United
States cites "conduct underlying the current pending offenses" in the District of Montana to allege
that White "previously engaged or attempted to engage in sexually violent conduct or child
molestation." [D.E. 1-1] 2. The United States also cites "evidence that between 2007 through 2014,
he engaged in several acts of abusive sexual contact/sexual assault/child molestation against several
minors under the age of 12 years." ld. The certification identifies no convictions for sexually violent
conduct or child molestation. See id.
After the certification of August 30, 2017, Fabian Saleh, M.D. [D.E. 11], Joseph J. Plaud,
Ph.D. [D.E. 12], Amy Ph7nix, Ph.D. [D.E. 21-1], and Luis Rosell, Psy. D. [D.E. 25] evaluated
White. These evaluations noted White's intellectual disability. See Report of Fabian M. Saleh,

4
Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 4 of 9

M.D. (Oct. 12, 2017) [D.E. 11-1] 17 ("[I]t is my opinion ... that Mr. White is a low-functioning
individual who presents with a neurodevelopmental disorder best described as Intellectual
Disability."); Report of Joseph J. Plaud, Ph.D. (Oct. 15, 2017) [D.E. 12] 16 ("Mr. White was
properly oriented as to person and place, but had difficulties articulating basic current information,
such as the current or past presidents of the United States, or the reason he was presently at FMCButner."); Report of Amy Phenix, Ph.D. (Nov. 12, 2017) [D.E. 21-1] 21-22 ("His intellectual
'

functioning is very low. Mr. White has poor social skills, and he relies on others to help him
function in a socially appropriate way. His peers help him write letters and communicate with
others. Mr. White has difficulty with communj.cation with others, and he has difficulty with social
judgment. He has impairment in managing his finances, and he has never lived independently.");
ReportofLuis Rosell, Psy. D. (Nov. 20, 2017) [D.E. 25] 9 ("He demonstrated deficits in remote and
recent memory. Consistent with previous testing, he demonstrated an inability to complete basic
tasks related to reading or subtracting. This deficit is due to his global intellectual deficits, :which
affects his ability on a variety of domains ...."). Two evaluators questioned White's ability to
understand and meaningfully participate in the proceedings under 18 U.S.C. § 4248. See Report of
Luis Rosell, Psy. D. (Nov. 20, 2017) [D.E. 25] 11; ReportofJosephJ. Plaud, Ph.D. (Oct. 15, 2017)
[D.E. 12] 16.
On November 28, 2017, White filed a motion to appoint a guardian ad litem [D.E. 28]. In
support, White argued that White's "mental condition renders him incompetent to assist counsel in
the current matter." Id. at 3.
On December 1, 2017, Judge Watters conducted a hearing in the District of Montana. See
[D.E. 37-15]. Judge Watters found that White is not suffering from a mental disease or defect such
that "his release would create a substantial risk ofbodily injury to another person or serious damage

5
Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 5 of 9

to property of another" and declined to commit White under 18 U.S.C. § 4246. See id. On that same
date, Judge Watters granted the government's motion to dismiss the criminal charges against White
without prejudice. See id.
On December 20, 2017, White filed a motion to dismiss the certificate against him or, in the
alternative, to hold a competency hearing [D.E. 37]. The government opposed the motion. See
[D.E. 40].

In April2018, the government again evaluated White pursuant to 18 U.S.C. § 4246. See
[D.E. 51]. On April30, 2018, Dr. Evan DuBois concluded that White did not meet criteria for
commitment under 18 U.S.C. § 4246. See [D.E. 51] 13; id. at 14 ("Given the overall presentation
of Mr. White, including the extent of his cognitive deficits, it does_not appear that there is a clear
causal relationship between his intellectual disability and risk for future sexual violence.").
On May 14, 2018, Judge Gates granted White's motion for a guardian ad litem [D.E. 60] and
recommended denying his motion to dismiss or, in the alternative, for a competency hearing [D.E.
58]. Judge Gates concluded that the certification should not be dismissed because White's "exact
situation is provided for in 18 U.S.C. §§ 4241(d) and 4248." Id. at 4. In support, Judge Gates cited
18 U.S.C. § 4241(d), which states: "If, at the end of the time period specified, it is determined that
the defendant's mental condition has not so improved as to permit the proceedings to go forward,
the defendant is subject to the provisions of sections 4246 and 4248." 18 U.S.C. § 4241(d); see
M&Rat3-4.

n.
Section 4241(d) discusses how a court shall proceed after a hearing to determine a
defendant's competency. See 18 U.S.C. § 4241(d). If the court determines that a defendant "is
presently suffering from a mental disease or defect rendering him mentally incompetent to the extent

6

Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 6 of 9

that he is unable to understand the nature and consequences of the proceedings against him or to
assist properly in his defense, the court shall commit the defendant to the custody of the Attorney
General." 18 U.S.C. § 4241(d). As discussed, on January 12,2017, Judge Watters found that White
was not mentally competent to proceed in his criminal case and complied with 18 U.S.C. § 4241 (d)
by committing White to the custody of the Attorney General. See [D.E. 37-14].
The Attorney General then hospitalized White for evaluation and treatment. See 18 U.S.C.
§ 4241 (d); [D.E. 3 7-14] 2. During that hospitalization, BOP examiners concluded that there was not
a substantial probability that in the foreseeable future White will attain the capacity to permit the
criminal proceedings to go forward. See [D.E. 94]. The BOP examiners also opined that White did
not meet criteria for commitment under 18 U.S.C. § 4246. See id. at 18. On December 1, 2017,
Judge Watters held a hearing, declined to commit White under section 4246, and dismissed the
criminal charges against White without prejudice. See [D.E. 37-15].
The government cites the language at the end of section 4241(d) and states that this court
need not hold a competency hearing concerning White's competency to proceed under 18 U.S.C. §
4248. -See 18 U.S.C. § 4241(d) ("If, at the endofthetimeperiod specified, it is determined that the
defendant's mental condition has not so improved as to permit the proceedings to go forward, the
defendant is subject to the provisions of section 4246 and 4248."). The court disagrees. Being
"subject to the provisions" of section 4248 does not address whether this court can hold a
competency hearing concerning White's competency to proceed under 18 U.S. C.§ 4248. It also
does not address whether the Fifth Amendment Due Process Clause permits the United States to
proceed under section 4248 against a person who is not competent to understand the section 4248
proceeding and who contests all three prongs under section 4248. Cf. United States v. Comstock,
560 U.S. 126, 129-33, 137-49 (2010); Medina v. Californi~ 505 U.S. 437,446-53 (1992); Jackson

7
Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 7 of 9

v. Indian~ 406 U.S. 715,720-39 (1972); Greenwood v. United States, 350 U.S. 366,373-76 (1956);
I

United States v. Wood, 741 F.3d 417, 423-25 (4th Cir. 2013).
Section 4248(b) expressly permits a court to order a competency evaluation under 18 U.S.C.

§ 4247(b) for a person facing civil commitment under 18 U.S.C. § 4248. See 18 U.S.C. § 4248(b)
("Prior to the date ofthe hearing, the court may order that a psychiatric or psychological examination
of the defendant be conducted, and that a psychiatric or psychological report be filed with the court,
pursuant to the provisions of section 4247(b) and (c)."). Section 4247(b), in turn, permits this court
to order an examination under section 4241 to determine "whether the person is suffering from a
mental disease or defect rendering him mentally incompetent to the extent that he is unable to
understand the nature and consequences of the proceedings against him or to assist properly in his
defense." 18 U.S.C. § 4247(c)(4)(A). The court construes the word ''proceeding" in section 4247
to include a section 4248 proceeding. Thus, this court orders an examination of White under 18
U .S.C. § 4247(b) to determine whether White is presently suffering from a mental disease or defect
rendering him mentally incompetent to the extent that he is unable to understand the nature and
consequences of the proceedings_,wider 18 U.S.C. § 4248 against him or to assist properly in his
defense in the section 4248 proceeding. Once the court receives the results of that examination, the
court will hold a competency hearing on November 29,2018.

ill.
In sum, the court DECLINES to adopt the M&R [D.E. 58] and GRANTS White's motion
for a competency hearing [D.E. 37]. Before that hearing takes place, the court orders an examination
of White under 18 U .S.C. § 4247(b) to determine whether White is presently suffering from a mental
disease or defect rendenng him mentally incompetent to the extent that he is unable to understand
the nature and consequences of the proceedings under 18 U.S.C. § 4248 against him or to assist

8
Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 8 of 9

properly in his defense in the section 4248 proceeding. Following the examination, a report shall
be filed with the court and copies served on counsel for White and the United States Attorney and
White's guardian ad litem. See 18 U.S.C. § 4247(d). The trial date of November 29, 2018, is
postponed. Instead, the court will hold a competency hearing on November 29, 2018. Pending the
competency hearing, the court DENIES without prejudice White's motion to dismiss. If the court
determines that White is not competent to proceed under section 4248, White can renew his motion
to dismiss. The court DENIES in part White's motion to hold discovery in abeyance [D.E. 70], but
relieves White from being deposed or responding to written discovery requests.
SO ORDERED. This _tl_ day of September 2018.

Chief United States District Judge

9
Case 5:17-hc-02162-D Document 95 Filed 09/11/18 Page 9 of 9

EXHIBIT 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DMSION
No. 5:17-HC-2162-D

UNITED STATES OF AMERICA,
Petitioner,
v.
OLNER LEE WIITTE,
Respondent.

)
)
)
)
)
)
)
)
)

ORDER

On September 25, 2018, the United States moved for reconsideration of this court's order of
September 11, 2018. See [D.E. 98]. In that order, this court granted Oliver Lee White's ("White"
or "respondent") motion for a competency hearing, scheduled that hearing for November 29, 2018,
and ordered "an examination of White under 18 U.S.C. § 4247(b) in order to determine whether
White is presently suffering from a mental disease or defect rendering him mentally incompetent to
the extent that he is unable to understand the nature and consequences of the proceedings under 18
U.S.C. § 4248 against him or to assist properly in his defense." [D.E. 95] 2. On October 15, 2018,
White responded in opposition [D.E. 100]. On October 29,2018, the United States replied [D.E.
101].
This court has the discretion to reconsider its order. See Am. Canoe Ass 'n v. Murphy Farms.
Inc., 326 F.3d 505,514-15 (4th Cir. 2003). As explained below, the court denies the government's
motion for reconsideration.
I.
In this court's order of September 11, 2018, the court described the procedural history of
White's criminal cases that repeatedly were dismissed without prejudice due to his incompetence,

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 1 of 20

his evaluations under 18 U .S.C. § 4246 where doctors repeatedly concluded that he was not presently
suffering from a mental disease or defect as a result of which his release would create a substantial
risk ofbodily injury to another person or serious damage to property of another, and his section 4248
case. See [D.E. 95] 2-7. The court then explained the textual rationale for concluding that this court
could order a competency examination of White. See id. at 8. The court noted that 18 U.S.C. §
4248(b) expressly permits a court to order a competency examination under 18 U .S.C. § 4247(b) for
a person facing civil commitment under 18 U.S.C. § 4248. See 18 U.S.C. § 4248(b) ("Prior to the
date of the hearing, the court may order that a psychiatric or psychological examination of the
'

defendant be conducted, and that a psychiatric or psychological report be filed with the court,
pursuant to the provisions of section 4247(b) and (c)."). "Section 424 7(b), in turn, permits this court
to order an examination under section 4241 to determine 'whether the person is suffering from a
mental disease or defect rendering him mentally incompetent to the. extent that he is unable to
'

understand the nature and consequences of the proceedings against him or to assist properly in his
defense.'" [D.E. 95] 8 (quoting 18 U.S.C. § 4247(c)(4)(A)) (emphasis added). The court construed
the word "proceedings" in section4247(c)(4)(A) ''to include a section4248 proceeding." Id. Thus,
the court ordered "an examination of White under 18 U.S.C. § 4247(b) to determine whether White
is presently suffering from a mental disease or defect rendering him mentally incompetent to the
extent that he is unable to understand the nature and consequences of the proceedings under 18
U.S.C. § 4248 against him or to assist properly in his defense in the section 4248 proceeding." Id.

--In opposition to these conclusions, the government argues that 18 U.S.C. §§ 4247-48 never
permit a court to order a competency examination or to hold a competency hearing in a section 4248
proceeding. See [D.E. 99] 5-6. The court rejects the argument that it can never order a competency
)

examination in a section 4248 proceeding. Section 4248 states that "[p]rior to the date of the

2
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 2 of 20

[section 4248 hearing to determine whether the person is a sexually dangerous person], the court may
order that a psychiatric or psychological examination of the defendant be conducted, and that a
psychiatric or psychological report be filed with the court, pursuant to the provisions of section
4247(b) and (c)." 18 U.S.C. § 4248(b). In turn, section 4247(c) permits the court to receive a
psychiatric or psychological report. See 18 U.S.C. § 4247(c). 1 Section 4247(c) provides a list of
what the psychiatric or psychological report "shall include," but the word "include" reflects that ''the

1

18 U.S.C. § 4247(c) provides:

Psychiatric or psychological reports.-A psychiatric or psychological report ordered
pursuant to this chapter shall be prepared by the examiner designated to conduct the
psychiatric or psychological examination, shall be filed with the court with copies
provided to the counsel for the person examined and to the attorney for the
Government, and shall include(1) the person's history and present symptoms;
(2) a description of the psychiatric, psychological, and medical tests that were
employed and their results;
(3) the examiner's findings; and
(4) the examiner's opinions as to diagnosis, prognosis, and(A) if the examination is ordered under section 4241, whether the person is
suffering from a mental disease or defect rendering him mentally incompetent to
the extent that he is unable to understand the nature and consequences of the
proceedings against him or to assist properly in his defense;
(B) if the examination is ordered under section 4242, whether the person was
insane at the time of the offense charged;
(C) if the examination is ordered under section 4243 or 4246, whether the person
is suffering from a mental disease or defect as a result of which his release would
create a substantial risk of bodily injury to another person or serious damage to
property of another;
(D) if the examination is ordered under section 4248, whether the person is a
sexually dangerous person;
(E) ifthe examination is ordered under section 4244 or 4245, whether the person
is suffering from a mental disease or defect as a result of which he is in need of
custody for c~e or treatment in a suitable facility; or
(F) if the examination is ordered as a part of a presentence investigation, any
recommendation the examiner may have as to how the mental condition of the
defendant should affect the sentence.
~.

18 U.S.C. § 4247(c) (emphasis added).

·

3

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 3 of 20

listlhat follows is meant to be illustrative rather than exhaustive." Samantar v. Yousuf, 560 U.S.
305, 317 (2010); see Burgess v. United States, 553 U.S. 124, 131 n.3 (2008). Thus, section 4247(c)
permits a court in a section 4248 proceeding to order that a psychiatric or psychological report
concerning a person in a section 4248 proceeding assess not only a person's sexual dangerousness,
but also that person's competence to understand the nature and consequences of the section 4248
proceeding against him or to assist properly in his defense. Moreover, it is the government, not this
court, that is seeking to ignore the plain text of 18 U.S.C. §§ 4247-48. Cf. Pereira v. Sessions, 138
S. Ct. 2105, 2118 (2018) ("Unable to find sure footing in the statutory text, the Government ...
pivot[s] away from the plain language and raise[s] a number of practical concerns. These practical
considerations are meritless and do not justify departing from the statute's clear text."); Burrage v.
United States, 571 U.S. 204,218 (2014) (same). Furthermore, given the court's authority under 18
U.S.C. §§ 4247-48 to order a psychiatric or psychological examination and to obtain a psychiatric
or psychological report concerning competency, the court rejects the government's argument that
the court cannot hold a competency hearing in a section 4248 proceeding. See Zadyydas v. Davis,
533 U.S. 678, 689, 696-97 (2001) (concluding that, to avoid constitutional doubt, a federal
immigration statute contained an implicit reasonable time limitation for the detention of aliens
ordered removed); United States v. Timms, 664 F.3d 436,452 (4th Cir. 2012) (concluding that, to
avoid constitutional doubt, the Adams Walsh Act implicitly permits a court to hold a probable cause
hearing.~ a

section 4248 case).

The government also argues that "section 4241 applies only in the criminal context" and that
this court can never inquire into a person's "competence" to understand the nature and consequences
of a section 4248 proceeding or to assist properly in his defense in a section 4248 proceeding. See
[D.E. 99] 7-9. Assuming without deciding that 18 U.S.C. § 4241 applies only in the criminal

4
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 4 of 20

context, the government's argument concerning section 4241 and competence ignores that being
"subject to the provisions of section[] 4248"2 does not prohibit a court from inquiring into whether
a person is competent to understand the nature and consequences of the section 4248 proceeding
against him or to assist properly in his defense when the person contests all three elements under the
Adam Walsh Act. See 18 U.S.C. § 4247(b), (cV Had Congress intended to preclude a court from
ever examining such a person's competence to understand the nature and consequences ofthe section
4248 proceeding against him and to properly assist in his defense, Congress could have said so. It
did not.
That Congress did not prohibit a court from ever inquiring into a person's competence to
understand the nature and consequences of the section 4248 proceeding against him and to assist
properly in his defense makes sense. The Supreme Court repeatedly has held that the "criminal trial.
of an incompetent defendant violates due process." Cooper v. Oklahomi;), 517 U.S. 348, 354 (1996)
(quotation omitted); see Medina v.

Californi~

505 U.S. 437,446-53 (1992). Mental competence

in a criminal case requires a person to have (1) a rational and factual understanding ofthe proceeding
against him and (2) a sufficient present ability to consult with his lawyer with a reasonable degree

2

18 U.S.C. § 4241(d) ("If, at the end of the time period specified, it is determined that the
defendant's mental condition has not so improved as to permit the proceedings to go forward, the
defendant is subject to the provisions of section 4246 and 4248.").
3

In United States v. Broncheay, 645 F.3d 676, 683-87 (4th Cir. 2011), the Fourth Circuit
held that the United States did not have to proceed first under 18 U.S.C. § 4241, rather than 18
U.S.C. § 4248, when seeking to commit a person as sexually dangerous where that person had not
completed his sentence. In Broncheay, there were "no allegations or showings that any of the
Respondents are unable to understand the nature and consequences of the proceedings against them
or to assist properly in their defense." ld. at 686 (quotation and alterations omitted). Thus,
Broncheau does not address the authority ofthis court to receive a psychiatric or psychological report
under 18 U.S.C. §§ 4247-48 addressing White's competence in this section 4248 proceeding or to
·
hold a competency hearing concerning White.
5

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 5 of 20

of rational understanding. See Indiana v. Edwards, 554 U.S. 164, 170 (2008); Drope v. Missouri,
420 U.S. 162, 171 (1975); Dusky v. United States, 362 U.S. 402, 402-03 (1960) (per curiam).
Of course, a section 4248 proceeding is a civil proceeding, not a criminal proceeding. See
United States v. Comstock, 560 U.S. 126, 129-33, 142-46 (2010). Nonetheless, a civil proceeding \
undersection4248 is not an "ordinary civil matter." United Statesv. Searcy, 880 F.3d 116, 125 (4th
Cir. 2018) (quotation omitted). Rather, the statutory procedures for a civil commitment hearing
under section 4248 "differ substantially from those that apply to a run-of-the mill civil case in that
they afford individuals rights traditionally associated with criminal proceedings, including the right
to appointed counsel, the right to confront witnesses, and a heightened burden of proof." ld.
Congress added these procedural safeguards because "a negative outcome in such a proceeding
results in a 'massive curtailment ofliberty"' and requires due process protection. United States v.
Wood, 741 F.3d 417, 423 (4th Cir. 2013) (quoting Vitek v. Jones, 445 U.S. 480, 491 (1980)).
Moreover, if this court construed 18 U.S.C. §§ 4247-48 to prohibit a court from inquiring into a
person's competence to understand the section 4248 proceeding and to assist properly in his defense
when that person contests all three elements under the Adam Walsh Act, the statute would raise
grave constitutional concerns. Cf. Comstock, 560 U.S. at 129-33, 137-49; Jackson v. Indiana, 406
U.S. 715, 720-39 (1972); Greenwood v. United States, 350 U.S. 366, 373-76 (1956); Wood, 741
F.3d at 423-25. After all, "[c]ompetence to stand trial is rudimentary, for upon it depends the main
part of those rights deemed essential to a fair

tri~,

including the right to effective assistance of

counsel, the rights to summon, to confront, and to cross-examine witnesses, and the right to testify
on one' sown behalf ...." Cooper, 517U.S. at354 (quotation omitted). The plain textof18 U.S.C.

§§ 4247-48avoidsthesegraveconstitutionalconcerns. Cf. Clarkv. Martinez, 543 U.S. 371,381-82
(2005) (constitutional-avoidance canon provides a tool for choosing between competing plausible

6
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 6 of 20

interpretations of a statute and choosing the statutory interpretation that avoids the constitutional
problem); INS v. St. Cyr, 533 U.S. 289, 299-300 (2001) (same); Edward J. DeBartolo Cor,p. v. Fla.
Gulf Coast Bldg. & Constr. Trades Council, 485 U.S. 568, 575 (1988) (collecting cases); Crowell
v. Benso!l, 285 U.S. 22, 62 (1932); United States ex rel. Attorney Gen. v. Del. & Hudson Co., 213
U.S. 366, 407 (1909); see also Ashwander v. Tenn. Valley Auth., 297 U.S. 288, 345-48 (1936)
(Brandeis, J., concurring).
The nature ofthe section 4248 proceeding bolsters the conclusion that a court can inquire into
a person's competence where that person contests all three elements under the Adam Walsh Act.
In a section 4248 proceeding, the court must hold "a hearing to determine whether the person is a
sexually dangerous person." 18 U.S.C. § 4248(a). The Adam Walsh Act defines a "sexually
dangerous person" as "a person who has engaged or attempted to engage in sexually violent conduct
or child molestation and who is sexually dangerous to others." Id. § 4247(a)(5). "[S]exually
dangerous to others" means '~at the person suffers from a serious mental illness, abnormality, or
disorder as a result of which he would have serious difficulty in refraining from sexually violent
conductorchildmolestationifreleased." Id. § 4247(a)(6). Inasection4248 proceeding, the United
States must prove three elements by clear and convincing evidence before the court can commit the
person to the custody of the Attorney General. Id. § 4248(d); see Comstock, 560 U.S. at 130-32;
United States v. Bell, 884 F.3d 500, 502-{)3,508-10 (4th Cir. 2018); United States v. Perez, 752
F.3d 398,407 (4th Cir. 2014); United States v. Antone, 742 F.3d 151, 158 (4th Cir. 2014); United
States v. Heyer, 740 F.3d 284, 291-92 (4th Cir. 2014); Wood, 741 F.3d at 419; United States v.
Bolander, 722 F.3d 199,206 (4th Cir. 2013); United States v. Woodell, 693 F.3d 440,442 (4th Cir.
2012); United States v. Francis, 686 F.3d 265,268 (4th Cir. 2012); United States v. Hall, 664 F.3d
456, 461-63 (4th Cir. 20 12). Specifically, the United States must prove: (1) the person has engaged

7
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 7 of 20

in or attempted to engage in sexually violent conduct or child molestation; (2) the person suffers
from a serious mental illness, abnormality, or disorder; and, (3) as a result of the serious mental
illness, abnormality, or disorder, the person would have serious difficulty in refraining from sexually
violent conduct or child molestation if released. See, e.g., Antone, 742 F.3d at 158-59.
The central focus of the first element under the Adam Walsh Act looks back in time and
requires the United States to prove by clear and convincing evidence at least one instance of actual
or attempted sexually violent conduct or child molestation. In nearly every Adam Walsh Act case,
the respondent does not contest the first element, and the United States simply presents a judgment
of conviction from a criminal case where the respondent was convicted of actual or attempted
sexually violent conduct or child molestation.4 In this case, however, White has never been
convicted of any crime, much less actual or attempted sexually violent conduct or child molestation.
Thus, during the trial in this section 4248 proceeding, the United States will have to present
witnesses and evidence concerning the first element. The United States also will present arguments
'

to the court seeking to persuade the court that the United States has proven that White has engaged
in at least one instance of actual or attempted sexually violent conduct or child molestation.
Likewise, during the trial in this section 4248 proceeding, White will have the opportunity to

4

The United States District Court for the Eastern District ofNorth Carolina has resolved 184
Adam Walsh Act cases. The undersigned has presided in 56 Adam Walsh Act cases. As the Fourth
Circuit explained in Timms, when the Adams Walsh Act was first implemented in 2006,
"individuals were certified under§ 4248(a) in various district courts around the country, depending
on the location of that person's BOP place of incarceration." Timms, 664 F .3d at 439. "Early in the
process, however, the BOP began transferring potential candidates for § 4248 civil commitment to
the Federal Correction Institute in Butner, North Carolina ("FCI-Butner'') for an initial assessment,
such that § 4248 civil commitment actions are now being reviewed almost exclusively through that
facility." Id. at 439-40 (footnote omitted). "As a result nearly all § 4248 civil commitment actions
nationwide are now filed and adjudicated in the Eastern District of North Carolina, and then
appealed to" the Fourth Circuit. ld. at 440.

8
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 8 of 20

challenge the government's evidence and witnesses concerning the first element, present his own
evidence and witnesses, and present arguments to the court seeking to persuade the court that the
government has failed to prove that White has engaged in at least one instance of actual or attempted
sexually violent conduct or child molestation.
When a respondent contests all three elements under the Adam Walsh Act (as White does),
the statutory scheme permits a court to inquire into whether the respondent has (1) a rational and
factual understanding of the section 4248 proceeding against him and (2) a sufficient present ability
to consult with his lawyer with a reasonable degree of rational understanding. See 18 U.S.C. §§
4247-48. Absent such an inquiry, the respondent faces the prospect of indefinite commitment
arising from a trial focused on both his past conduct and present mental condition even though he
lacks the capacity to understand the section 4248 trial or to participate rationally in his defense.
Permitting such a trial and ensuing commitment to occur would violate procedural due process. See
Mathews v. Eldridge, 424 U.S. 319,335 (1976); see also Jackso!!, 406 U.S. at 731-39.

II.
In opposition to the court's conclusion that it can inquire into a respondent's competence in
a section 4248 proceeding where respondent contests all three elements, the government argues that
the first element in an Adam Walsh Act case does not require a prior criminal act. See [D.E. 101]
1-2; United Statesv. Comstock, 627F.3d513, 520 (4thCir. 2010). The government also argues that
the first element in an Adam Walsh Act case does not require criminal scienter coupled with
attempted or actual sexually violent conduct or child molestation. See [D.E. 101] 2; Kansas v.
I

Hendricks, 521 U.S. 346, 362 (1997).

Moreover, the government argues that ''volitional

impairment-not prior misconduct-is the gravamen of the civil commitment inquiry," that the
Adams Walsh Act provides ''the minimum safeguards required by the Fifth Amendment," and that

9
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 9 of 20

those safeguards do not require that a respondent who contests all three elements be competent.
[D.E. 101] 2-7.
The court agrees that the first element in an Adam Walsh Act case requires proof by clear
and convincing evidence that respondent engaged in actual or attempted sexually violent conduct
. or child molestation but does not require a prior criminal act. See Comstock, 627 F .3d at 520;
accord Allen v. illinois, 478 U.S. 364, 370-71 (1986). The court also agrees that the first element
in an Adam Walsh· Act case does not require proof of criminal scienter coupled with actual or
I

attempted sexually violent conduct or child molestation. See Hendricks, 521 U.S. at 362. The court
also agrees that ''volitional impairment" is the focal point of the second and third elements in every
Adam Walsh Act case, but the court does not agree with the government's implicit argument that
the first element is irrelevant. See Bell, 884 F.3d at 508; Perez, 752 F.3d at 407; Antone, 742 F.3d
at 158; Heyer, 740 F.3d at291-92; Wood, 741 F.3dat419-24; Bolander, 722 F.3dat206--07; Hall,
664 F.3d at 462--63. Rather, the first element is a required element of proof. More fundamentally,
the court disagrees with the government's argument that the Adams Walsh Act does not require that
a person who contests all three elements ina proceeding under 18 U.S.C. § 4248 be competent. The
court also disagrees with the government that if the Adam Walsh Act permits the trial and
commitment under 18 U.S.C. § 4248 of an incompetent person who contests all three elements, then
such a proceeding would comport with procedural due process.

A.
As for whether the Adams Walsh Act requires that a person who contests all three elements
in a proceeding under 18 U.S.C. § 4248 be competent, this court already has explamed the textual
rationale permitting the court to receive a psychiatric or psychological report concerning competency
in a section 4248 proceeding. See 18 U.S.C.

§~

4247-48. The court also has explained that the

10

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 10 of 20

ability to receive such a report also gives the court authority to hold a he~g and to provide relief
to an incompetent person who contests all three elements. See Zadyydas, 533 U.S. at 689, 696-97;
Timms, 664 F.3d at 452.

B.
Alternatively, if the Adams Walsh Act permits the trial and commitment of an incompetent
person who contests all three elements, then such a proceeding would not comport with procedural
due process. See Mathews, 424 U.S. at 335; see also Jackson, 406 U.S. at 731-39. Comparing the
process in a commitment proceeding under 18 U.S.C. § 4246 with a commitment proceeding under
18 U.S.C. § 4248 illustrates why procedural due process requires that a person who contests all three
elements in a proceeding under 18 U.S.C. § 4248 be competent.

In a proceeding under 18 U.S.C. § 4246, the United States seeks to commit a person who
allegedly is "presently su:fferi.D.g from a mental disease or defect as a result of which his release
would create a substantial risk of bodily to another person or serious damage to property of another."
18 U.S.C. § 4246(d). 5 At a section 4246 hearing, the person is represented by counsel and, "ifhe is
financially unable to obtain adequate representation, counsel shall be appointed for him pursuant to
section 3006A." Id. § 4247(d). "The person shall be afforded an opportunity to testify, to present
evidence, to subpoena witnesses on his behalf, and to confront and cross-examine witnesses who
appear at the hearing." Id. At a section 4246 hearing, the United States must prove "by clear and
convincing evidence that the person is presently suffering from a mental disease or defect as a result

i

5

The United States District Court for the Eastern District ofNorth Carolina has resolved 507
cases under 18 U.S.C. § 4246. As with section 4248 cases, the Eastern District ofNorth Carolina
resolves such a large volume of section 4246 cases because s.ection 4246 detainees are evaluated and
treated at FCI-Butner. FCI-Butner is located within the Eastern District ofNorth Carolina. See 28
U.S.C. § 113(a).

11

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 11 of 20

of which his release would create a substantial risk of bodily injury to another person or serious
damage to property of another .... " ld. § 4246(d). If the United States meets its burden of proof,
''the court shall commit the person to the custody of the Attorney General." ld.
Once a person is committed under 18 U.S.C. § 4246, the "Attorney General shall make all
reasonable efforts to cause . . . a State to assume . . . responsibility" for the person. ld. If
notwithstanding such efforts, a State does not "assume such responsibility, the Attorney General
shall hospitalize the person for treatment in a suitable facility, until (1) such a State will assume such
responsibility; or (2) the person's mental condition is such that his release or his conditional release
under a prescribed regimen of medical, psychiatric, or psychological care or treatment would not
create a substantial risk of bodily injury to another person or serious damage to property of another;
whichever is earlier." Id.
Section 4246(e) permits the court to hold periodic hearings to assess whether the person has
recovered from his mental disease or defect to such an extent to permit either his conditional or
unconditional discharge. See id. § 4247(h). Moreover, a person committed under section 4246 can
request such a hearing after being committed for 180 days. See id.
A commitment hearing under 18 U.S.C. § 4246 does not have as an element of proof the
respondent's prior conduct. See 18 U.S.C. § 4246(d); United States v. Baker, 45 F.3d 837, 844-46
(4th Cir. 1995). Rather, the entire focus of the section 4246 hearing is the respondent's alleged
"mental disease of defect" and whether "as a result of' that mental disease or defect the respondent's
release ''would create a substantial risk of bodily injury to another person or serious damage to
property of another." See 18 U.S.C. § 4246(d). Thus, section4246hearingsfocusonexpertmedical
evidence concerning those two medical issues. See Vitek, 445 U.S. at 495 ("[T]he inquiry involved
in determining whether or not to transfer an inmate to a mental hospital for treatment involves a
12

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 12 of 20

question that is essentially medical."); Baker, 45 F.3d at 844-45 (same); cf. United States v.
Debenedetto, 618 F. App'x 751,752-54 (4th Cir. 2015) (per curiam) (unpublished); United States
v. Soobrian, 571 F. App'x 256, 256-57 (4th Cir. 2014) (per curiam) (unpublished); United States
v. Conroy, 546 F. App'x 311, 313-16 (4th Cir. 2013) (per curiam) (unpublished); United States v.
Taylor, 513 F. App'x 287,288-92 (4th Cir. 2013) (per curiam) (unpublished).
Respondents in section 4246 proceedings often are so mentally ill that they are not
"competent" under Dusky and its progeny to face criminal prosecution, but their lack of
"competence" is not relevant to the two medical issues at the heart of every section 4246 proceeding.
Those two issue are: (1) does respondent have a mental disease or defect; and (2) if so, as a result
ofthat mental disease or defect, would respondent's release "create a substantial risk ofbodily injury
to anther person or serious damage to property of another." 18 U .S.C. § 4246(d); see Vitek, 445 U.S.
at 489-90; Baker, 45 F.3d at 844-45.
In contrast to section 4246 proceedings, the first element in an Adam Walsh Act case is a
backward looking factual inquiry into whether respondent has ever engaged in or attempted to
l

engage in sexually violent conduct or child molestation. The next two elements in an Adam Walsh
Act case then focus on two medical issues: (1) whether respondent has a serious mental illness,
· abnormality, or disorder; and (2) if so, as a result of that serious mental illness, abnormality, or
disorder, would respondent have serious difficulty in refraining from sexually violent conduct or
child molestation if released. See 18 U.S.C. §§ 4247(a)(5}-{6), 4248(a).
The goal ofthe factfinder as to the first element in a section 4248 trial "is to uncover the truth
by examining rigorously the reliability of conflicting evidence presented and then engaging in
extensive factfinding." Baker, 45 F.3d at 844. The statutory right to counsel, to cross-examine and
confront witnesses, to summon witnesses, to present evidence, and to testify all enhance the
13

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 13 of 20

reliability of the truth-seeking goal. See id.; 18 U.S.C. § 4247(d) (describing the statutory rights of
a respondent in a section 4248 proceeding). When the first element in a section 4248 trial is
contested, the factfinder must "determine the veracity of the testifying witnesses based, inter ali~
upon the witnesses' demeanor while testifying." Baker, 45 F.3d at 844. Only if the United States
proves this first element under 18 U .S.C. § 4248 does the court turn to the two medical issues at the
heart of the second and third elements. Cf. id. at 844-45 (noting that commitment under the
predecessor statute of 18 U.S.C. § 4246 focuses only on two medical issues and that the focus of
such hearings concern expert testimony concerning those medical issues). Thus, the difference
between a section 4246 proceeding and a fully contested section 4248 proceeding illustrates why
procedural due process requires that a person who contests all three elements in a section 4248
proceeding be competent.

c.
If, as the United States contends, the Adam Walsh Act does not require a person who contests
all three elements to be competent, this court must test that contention under Mathews v. Eldridge,
424 U.S. 319, 335 (1976), and its progeny.

See,~'

Nelson v. Colorado, 137 S. Ct. 1249, 1255

(2017); Connecticut v. Doehr, 501 U.S. 1, 4, 18 (1991); Cleveland Bd. ofEduc. v. Loudermill, 470
U.S. 532, 542-48 (1985); Santosky v. Kramer, 455 U.S. 745, 768 (1982); Little v. Streater, 452 U.S.
1, 13-17 (1981); Addington v. Texas, 441 U.S. 418, 425-33 (1979); Timms, 664 F.3d at 450-54;
cf. Hamdi v. Rumsfeld, 542 U.S. 507, 532-33 (2004); Foucha v.

Louisian~

504 U.S. 71, 79, 86

(1992). The Supreme Court has identified the following three factors to consider in determining
those procedural safeguard due a person whose interests are to be adversely affected by government
action:
First, the private interest that will be affected by the official action; second, the risk
14
v'

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 14 of 20

of an erroneous deprivation of such interest through the procedures used, and the
probable value, if any, of additional or substitute procedural safeguards; and finally,
the Government's interest, including the function involved and the fiscal and
administrative burdens that the additional or substitute procedural requirement would
entail.
Mathews, 424 U.S. at 335; cf. Vitek, 445 U.S. at 491-97.

1.
The first factor "is the nature of the interest affected by the government action." Baker, 45
F.3d at 844. An adverse outcome for an individual in a section 4248 hearing results in "a massive
curtailment of [that person's] liberty." Humphrey v. Cady, 405 U.S. 504, 509 (1972); Woog, 741
F.3d at 423; Timms, 664 F.3d at 450; Baker, 45 F.3d at 843-44. The person is committed ''to the
custody of the Attorney General." 18 U.S.C. § 4248(d). "The Attorney General shall make all
reasonable efforts to cause . . . a State to assume . . . responsibility" for that person. Id. If
notwithstanding such efforts, no State ''will assume such responsibility, the Attorney General shall
place the person for treatment in such a suitable facility, until (1) such State will assume such
responsibility; or (2) the person's condition is such that he is no longer sexually dangerous to others,
or will not be sexually dangerous to others if released under a prescribed regimen of medical,
I

psychiatric, or psychological care or treatment; whichever is earlier." ld.
The United States makes sex offender treatment available to those persons who are
committed under the Adam Walsh Act. The treatment takes place at FCI-Butner and has four
phases, and each phase builds on the earlier phase. Phase one is an orientation and assessment phase
where psychologists gather information from and about the person and formulate an assessment.
Phase two involves individual and group therapy and focuses on helping the person to acquire
cognitive skills associated with conflict resolution, moral reasoning, and self control and seeks to
decriminalize the person. Phase three is the core ofthe sex offender treatment. Phase three involves
15

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 15 of 20

both individual and group therapy and focuses on increasing the cognitive and self-regulatory skills
learned in phase two. For example, in phase three, the person will dismantle his sex offending
behaviors, one event at a time. Phase three also requires the person to identify high-risk situations
and triggers. Phase three is critical to constructing a relapse prevention plan. Phase four involves
relapse prevention planning and release planning and builds on phase three. Phase four also focuses
on integrating and internalizing the person's knowledge, emotional understanding, and emotional
insight. Phase four also focuses on housing, employment, financial management, and relationships.
/

As with phases two and three, phase four irivolves individual and group therapy. Some men6 have
completed the treatment program successfully and have been released, but the treatment program
takes years to complete.
Whether or not a person engages in sex offender treatment at FCI-Butner, a person committed
under 18 U.S.C. § 4248 can request a discharge hearing 180 days after being committed. See 18
U.S.C. § 4247(d); United States v. Maclaren, 866 F.3d 212,216-19 (4th Cir. 2017). To obtain a
discharge hearing, the person must plausibly allege " factual matter, accepted as true, to state a claim
for discharge that is plausible on its face." Maclare!l, 866 F.3d at 218; see 18 U.S.C. § 4248(e).
Essentially, the person must plausibly allege that he is no longer a sexually dangerous person. See

"

Maclaren, 866 F.3d at 218.

If the person obtains a hearing, the person must show by a

preponderance of the evidence that he is no longer a sexually dangerous person or will not be
sexually dangerous to others if released under a prescribed regimen of medical, psychiatric, or
psychological care or treatment. See 18 U.S.C. § 4248(e); see, M.., United States v. Woodell, 887
F.3d 591, 599--602 (4th Cir. 2018).

6

To date, no women have been committed under the Adam Walsh Act.
16

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 16 of 20

The government argues that the Adam Walsh Act's "post-commitment procedures afford
additional protection" to a person and thereby obviate the need for a person who contests all three
elements to be competent at his section 4248 trial. [D.E. 101] 4. However, an incompetent person
who contested all three elements and got committed could not participate meaningfully in sex
offender treatment, much less learn from it. Moreover, if the person were incompetent due to an
intellectual disability, the person essentially would face lifetime commitment unless and until he
(

.

'

became competent. Cf. Jackso!l, 406 U.S. at 731-39. To such a person, the post-commitment
procedures would not afford additional protection.
The private interest that is affected by commitment under 18 U.S.C. § 4248 is great. See
Timms, 664 F.3d at 451; Baker, 45 F.3d at 844. Thus, the government's interest in committing an
incompetent person who contests all three elements under the Adam Walsh Act "must be great, and
the risk of an erroneous deprivation of liberty small for the government to prevail." Baker, 45 F.3d
at 844.

2.
The court next considers ''the risk of an erroneous deprivation of such interest through the
procedures used, and the probable value, if any, of additional or substitute procedural safeguards."
Mathews, 424 U.S. at 335. As mentioned, the first element of the Adam Walsh Act requires the
factfinder to uncover the truth concerning whether respondent has attempted to engage in or engaged
in sexually violent conduct or child molestation. Where a respondent lacks a criminal conviction
for actual or 3:ttempted sexually violent conduct or child molestation, the factfinder must examine
rigorously the reliability of conflicting evidence presented and engage in extensive factfinding. The
Adam Walsh Act provides respondent a statutory right to counsel, to testify, to present evidence, to
subpoena witnesses, and to confront and cross-examine witnesses who appear at the hearing. See
17

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 17 of 20

18 U.S.C. § 4247(d). A respondent's competence, however, is "rudimentary, for upon it depends"
these statutory rights. See Cooper, 517 U.S. at 354 (quotation omitted). Simply put, an incompetent
respondent who contests the first element in an Adam Walsh Act case effectively loses these
statutory rights because he lacks the ability to rationally understand the proceeding against him or
communicate with his counsel about the factual allegations at the heart of the first element's factual
inquiry. Likewise, an incompetent respondent who contests the first element in an Adam Walsh Act
case effectively loses the ability to testify, to advise counsel which witnesses to subpoena in his
defense, and to advise counsel about potentially fruitful lines of cross-examination. Moreover,
appointing a guardian ad litem does not cure these problems. Cf. [D.E. 101] 6 (suggesting that
appointing a guardian ad litem for an incompetent respondent who contests all three elements in an
Adam Walsh Act case provides a sufficient procedural safeguard to satisfy procedural due process).
After all, a guardian ad litem is not effectively able to assist counsel in contesting the first element.

If the Adam Walsh Act permits the trial and commitment of an incompetent person who
contests all three elements, then the risk of erroneous deprivation of that persons's liberty is
extraordinary. Moreover, requiring a person who contests all three elements in a section 4248
proceeding to be competent would add substantial value to the procedural safeguards in the Adam
Walsh Act. See 18 U.S.C. § 4247(d) (providing right to counsel, to testify, to present evidence, to
subpoena witnesses, and to confront and cross-examine witnesses); 18 U.S.C. § 4248(d) (requiring
the government to prove the three elements by clear and convincing evidence).

3.
Next, the court considers the government's "interest, including the function involved and the
fiscal and administrative burdens that the additional or substitute procedural requirement would
entail." Mathews, 424 U.S. at 335. Obviously, the government has an important and substantial
18

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 18 of 20

interest in delivering mental health care to "sexually dangerous persons who are already in federal
custody" and to protecting the public from such individuals. Comstock, 560 U.S. at 142. Moreover,
section 4248 is "reasonably adapted to Congress's power to act as a responsible federal custodian."
ld. at 143 (quotation and citation omitted).
However, requiring that a person who contests all three elements in an Adam Walsh Act case
be competent will pose minimal fiscal and administrative burdens to the government. First, as the
history of the Adam Walsh Act cases in the Eastern District ofNorth Carolina reflects, the issue of
competence rarely arises in section 4248 cases. Moreover, the issue of competency coupled with a
respondent who lacks a conviction for attempted or actual sexually violent conduct or child
molestation, arises even less frequently. Indeed, to this court's knowledge, the issues presented in
this Adams Walsh Act case have never arisen in the 183 other Adam Walsh Act cases in the Eastern
District of North Carolina. Second, if the issue of competency does arise, the case will involve a
person who faced federal criminal charges, received a competency evaluation under 18 U.S.C. §
4241, and was found incompetent to face criminal charges. The person will then be evaluated for
commitment under 18 U.S.C. § 4246. If committed under section 4246, the person will receive
treatment under section 4246 and the United States will not seek commitment under section 4248.

If not committed under section 4246, and the government seeks commitment under section
4248, and the person contests all three elements, and the person arguably is hot competent to proceed
in the section 4248 case, the court can receive a psychiatric or psychological report concerning the
person's competence. See 18 U.S.C. §§ 4247-48. The court can then hold a competency hearing.

If the person is found competent, the section 4248 case proceeds. If the person is found not
competent, the court can notify the responsible state authorities about the procedural history of the
case and permit responsible state authorities to decide whether to commit the person under

19
Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 19 of 20

applicable state law. For example, many states have their own versions of 18 U.S.C. § 4246,
including statutes that permit the civil commitment of seriously mentally ill persons or seriously
developmentally disabled persons. Cf. Mont. Code Ann.§ 53-20-121 et seq. (2017) (commitment
of seriously developmentally disabled individuals); Mont. Code Ann. § 53-21-121 et seq. (2017)
(commitment of seriously mentally ill individuals). Thus, the government's interest in delivering
mental health care to an allegedly sexually dangerous person in its custody is substantial, but
requiring that a person who contests all three elements be competent imposes little additional costs.
See Mathews, 424 U.S. at335. Furthermore, inanalyzingthethirdMathews factor, the court cannot
presuppose that the person is a sexually dangerous person.

4.
Balancing the factors, the private interest that is affected by commitment under 18 U.S. C.

§ 4248 is extraordinary. Moreover, the government's interest in committing an incompetent person
who contests all three elements is slight. Finally, the risk of erroneous deprivation ofliberty is great
when the government seeks to commit an incompetent person who contests all three elements under
the Adam Walsh Act. Thus, if (as the United States asserts) the Adam Walsh Act permits the trial
and commitment of an incompetent person who contests all three elements, then the Adam Walsh
Act as applied to that incompetent person would violate procedural due process.

m.
In sum, the government's motion for reconsideration [D.E. 98] is DENIED. The competency
hearing scheduled for November 29,2018, shall proceed.
SO ORDERED. This _2..k. day ofNovember 2018.

20

Case 5:17-hc-02162-D Document 103 Filed 11/26/18 Page 20 of 20

EXHIBIT 3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D

UNITED STATES OF AMERICA,
Petitioner,

)
)
)

')
v.
OLIVER LEE WHITE,
Respondent.

)
)
)
)
)

ORDER

The United States seeks to have the court commit Oliver Lee White ("White") as a sexually
dangerous person under 18 U.S.C. §§ 4247-48. White has never been convicted of any crime and
contests all three elements under the Adam Walsh Act. See Order [D.E. 103] (denying motion for
reconsideration). On November 29, 2018, the court held a competency hearing concerning White
[D.E. 107].
As explained in open court and incorporated by reference, the court has considered the entire
record and the arguments of counsel. White is currently suffering from a mental disease or defect
(i.e., Intellectual Disability, Moderate to Severe), which renders White unable to understand the
nature and consequences of the section 4248 proceeding against him and to assist properly in his
defense in the section4248 proceeding. See [D.E. 110] (report of Dr. Stelmach) (diagnosing White
with Intellectual Disability, Moderate to Severe, and finding that White is not competent to proceed
ina4248 proceeding); see also [D.E. 89] (additional report ofDr. Stelmach); cf. [D.E. 102] (report
of Dr. Rigsbee) (diagnosing White with Intellectual Disability, Mild, and finding that White is not
competent to proceed in a section 4248 proceeding). White also suffers from Fetal Alcohol

Case 5:17-hc-02162-D Document 114 Filed 12/06/18 Page 1 of 3

Syndrome. See [D.E. 110]; [D.E. 89]. Doctors cannot medicate White to attain competency, and
multiple efforts to help White attain competency through therapy have not worked due to White's
intellectual disability. See, e.g., [D.E. 102] 7-10. Nonetheless, the United States argues that a
respondent's competency is never relevant in a section 4248 proceeding.
The court credits the testimony and report of Dr. Stelmach and finds that White is presently
suffering from a mental disease or defect (i.e., Intellectual Disability, Moderate to Severe) rendering

him mentally incompetent to understand the nature and consequences ofthe section 4 248 proceeding
against him and to assist properly in his defense in the section 4248 proceeding. White also suffers
from Fetal Alcohol Syndrome. Moreover, the court rejects the government's argument that
competency is never relevant in a section 4248 proceeding. As explained at length in this court's
order of November 26, 2018 [D.E. 103], competency is relevant in a section 4248 proceeding where
the respondent contests all three elements under the Adam Walsh Act. Furthermore, the Adam
Walsh Act permits a court to dismiss a section 4248 proceeding against an incompetent person who
contests• all three elements. Id. at 2-11. Alternatively, if the Adam Walsh Act does not permit a
'
I

court to dismiss a section 4248 proceeding against an incompetent person who contests all three
elements under the Adam Walsh Act, then permitting such a trial and ensuing commitment would
violate procedmal due process as applied to that person. See id. at 10-20. Given that White is
incompetent and cannot attain competency via medicine or therapy and that White contests all three
elements under the Adam Walsh Act, the court grants White's motion to dismiss this section 4248
proceeding.
In sum, the court GRANTS White's motion to dismiss [D.E. 37] and DISMISSES
'

WITHOUT PREJUDICE this section 4248 proceeding. The government's case against White under
18 U.S.C. § 4246 remains pending before the Honorable W. Earl Britt. See United States v. White,

2
Case 5:17-hc-02162-D Document 114 Filed 12/06/18 Page 2 of 3

5:18-HC-2295-BR (E.D.N.C.); see also 18 U.S.C. § 4246(a).
SO ORDERED. This _Jo_ day of December 2018.

J~sC~i~m

United States District Judge

3
Case 5:17-hc-02162-D Document 114 Filed 12/06/18 Page 3 of 3

EXHIBIT 4
UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

·

·1· · · · · · · UNITED STATES DISTRICT COURT
· · · · · · ·EASTERN DISTRICT OF NORTH CAROLINA
·2· · · · · · · · · · WESTERN DIVISION
·3
· ·
·4·
· ·
·5·
· ·
·6

UNITED STATES OF AMERICA·
· · · · · · · · · · · · ·
· ·vs.· · · · · · · · · ·
· · · · · · · · · · · · ·
OLIVER LEE WHITE· · · · ·

)
)
) 5:17-hc-02162-D
)
)

·7
·8
· ·
·9·
· ·
10·

·
·
·
·

·
·
·
·

·TRANSCRIPT OF RULING ON SECTION 4248 HEARING
· · · · · · · ·December 6, 2018
· · · · · ·In Raleigh, North Carolina
· ·Before James C. Dever III, District Judge

11
12· APPEARANCES OF COUNSEL:
13· · · · · ·For the Government:
14·
· ·
15·
· ·
16·

·
·
·
·
·

·
·
·
·
·

·
·
·
·
·

·
·
·
·
·

·
·
·
·
·

·ROBERT DODSON, ESQ.
·U.S. Attorney's Office
·310 New Bern Avenue
·Suite 800
·Raleigh, North Carolina 27601

17
18· · · · · For the Defendant:
19·
· ·
20·
· ·
21·
· ·
22
23
· ·
24·
· ·
25·

·
·
·
·
·
·

·
·
·
·
·
·

·
·
·
·
·
·

·
·
·
·
·
·

·
·
·
·
·
·

·SUZANNE LITTLE, ESQ.
·HALERIE F. MAHAN, ESQ.
·JACLYN LEE DiLAURO, ESQ.
·Federal Public Defender's Office
·150 Fayetteville Street, Suite 450
·Raleigh, North Carolina 27601

Court Reporter:
· · Suzanne G. Patterson, Registered Professional
· · Reporter, Notary Public, State of North Carolina
· · Stenograph with Computer Aided Transcription

www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 1 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 2

·1· · · · · · · · · ·P R O C E E D I N G S
·2· · · · · ·THE COURT:· Good afternoon.· Welcome to the United
·3· States District Court for the Eastern District of North
·4· Carolina.
·5· · · · · ·I'm going to announce my findings and conclusions
·6· in connection with the competency hearing that was held.
·7· · · · · ·The United States seeks to have the Court commit
·8· Oliver Lee White as a sexually dangerous person under 18
·9· U.S.C. Sections 4247 and 4248.· White has never been
10· convicted of any crime and contests all three elements under
11· the Adam Walsh Act.· See this Court's order at Docket Entry
12· 103.
13· · · · · ·On November 29th, 2018, the Court held a competency
14· hearing concerning White.· The Court has considered the
15· entire record, the arguments of counsel, and all evidence.
16· The Court now makes these findings of fact and conclusions
17· of law.
18· · · · · ·The Court finds that Oliver Lee White is not
19· competent to proceed in this proceeding under 18 U.S.C.
20· Sections 4247 and 4248, cannot be restored to competency by
21· a medication or therapy, and contests all three elements
22· under 18 U.S.C. Sections 4247 and 4248.
23· · · · · ·Given these unique facts and the governing law, the
24· Court grants respondent Oliver Lee White's motion to dismiss
25· this proceeding and dismisses the action without prejudice.
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 2 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 3

·1· White remains subject to the ongoing proceeding under 18
·2· U.S.C. Section 4246.
·3· · · · · ·As for the factual background in this case, on
·4· May 26th, 2009, a federal grand jury sitting in the District
·5· of Montana indicted White and charged him with four counts
·6· of aggravated sexual abuse of a minor.
·7· · · · · ·On December 22nd, 2009, the United States moved to
·8· dismiss the indictment without prejudice after entering into
·9· a pretrial deferment agreement with White in which the
10· United States deferred prosecution for two years.
11· · · · · ·Pursuant to the deferred prosecution agreement,
12· White was to reside with his mother, Peggy White, and have
13· no contact with minors.· On December 22nd, 2009, the
14· District of Montana dismissed the indictment without
15· prejudice.· The Court released White to his family.
16· · · · · ·On April 18th, 2012, another federal grand jury in
17· the District of Montana charged White with four counts of
18· abusive sexual contact with minors and two counts of
19· attempted abusive sexual contact with minors.· White's
20· mother, Peggy White, and her partner, Susan Kelly, were
21· named as codefendants and charged with misprison of felony.
22· White's criminal defense attorney requested a competency
23· examination for White.
24· · · · · ·On May 30th, 2013, Doctors had FMC Butner concluded
25· that White lacked a rational and factual understanding of
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 3 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 4

·1· the criminal charges and proceedings against him and could
·2· not assist in his defense.· The Honorable Donald Molloy,
·3· United States District Judge in the District of Montana,
·4· requested an evaluation of White under 18 U.S.C. Section
·5· 4246.· On September 11th, 2013, Doctors at FMC Butner
·6· concluded that White's mental condition would not create a
·7· substantial risk of bodily injury to another person or
·8· serious damage to the property of another, thus, White
·9· should not be committed under 18 U.S.C. Section 4246.
10· · · · · ·On October 7th, 2013, Judge Molloy ordered that the
11· six criminal charges against White be dismissed without
12· prejudice unless the United States objected.· On October
13· 10th, 2013, the United States moved to dismiss the criminal
14· charges against White without prejudice.· Judge Molloy,
15· released White to his family.
16· · · · · ·On July 22nd, 2016, another federal grand jury in
17· the District of Montana charged White with aggravated sexual
18· abuse of a child and attempted sexual abusive contact with a
19· child.· On September 28th, 2016, the Honorable Susan
20· Watters, United States District Judge in the District of
21· Montana, ordered White to be evaluated in order to determine
22· whether White was competent to stand trial.
23· · · · · ·On November 28th, 2016, the medical evaluator
24· concluded that White was not competent to stand trial.· On
25· January 11th, 2017, Judge Watters conducted a competency
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 4 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 5

·1· hearing and ordered that White be evaluated and that
·2· attempts be made to assist White in attaining competency.
·3· If competency could not be restored, Judge Watters ordered
·4· the facility's director to file a certificate pursuant to 18
·5· U.S.C. Section 4246(a) stating whether White is presently
·6· suffering from a mental disease or defect, as a result of
·7· which his release would create a substantial risk of bodily
·8· injury to another person or serious damage to the property
·9· of another.
10· · · · · ·On July 26th, 2017, the BOP evaluators opined that
11· White did not meet criteria for civil commitment under 18
12· U.S.C. Section 4246; however, during 2017, BOP evaluators
13· also evaluated White under 18 U.S.C. Section 4248 and
14· prepared a report dated August 18th, 2017.
15· · · · · ·On August 30, 2017, pursuant to 18 U.S.C. Section
16· 4248, the United States filed in this court a certificate of
17· sexually dangerous person concerning White.· In its
18· certification, the United States cited conduct underlying
19· the current pending offenses in the District of Montana to
20· allege that White previously engaged or attempted to engage
21· in sexually violent conduct or child molestation.· The
22· United States also cited evidence that between 2007 through
23· 2014 he engaged in several acts of abusive sexual contact,
24· sexual assault, child molestation against several minors
25· under the age of 12 years.· The certification identified no
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 5 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 6

·1· convictions for sexually violent conduct or child
·2· molestation or attempted sexually violent contact or
·3· attempted child molestation.
·4· · · · · ·After the certification of August 30th, 2017, there
·5· is -- doctors examined and evaluated White.· These
·6· evaluations noted White's intellectual disability.· They're
·7· in the record.· See report of Fabian M. Saleh, Docket Entry
·8· 11-1; report of Joseph J. Plaud, Ph.D., docket entry 12;
·9· Report of Amy Phenix, Docket Entry 21-1; report of Luis
10· Rosell, Docket Entry 25.
11· · · · · ·Two evaluators questioned White's ability to
12· understand and meaningfully participate in the proceeding
13· under 18 U.S.C. Section 4248.· See report of Dr. Rosell at
14· Docket Entry 25, page 11.· Doctor -- excuse me -- see report
15· of Dr. Plaud, Docket Entry 12 at page 16.
16· · · · · ·On November 28th, 2017, White filed a motion to
17· appoint a Guardian Ad Litem.· In support, White argued that
18· his mental condition rendered him incompetent to assist
19· counsel in the matter.
20· · · · · ·On December 1st, 2017, Judge Watters conducted a
21· hearing in the District of Montana, Judge Watters found that
22· White is not suffering from mental disease or defect such
23· that his release would create a substantial risk of bodily
24· injury to another person or serious damage to the property
25· of another and declined to commit White under 18 U.S.C.
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 6 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 7

·1· Section 4246.· On that same date, Judge Watters granted the
·2· government's motion to dismiss the criminal charges in the
·3· District of Montana against White without prejudice.
·4· · · · · ·On December 20th, 2017, White filed a motion to
·5· dismiss the certificate against him or, in the alternative,
·6· to hold a competency hearing.· The government opposed the
·7· motion.
·8· · · · · ·In April 2018, the government, again, evaluated
·9· White pursuant to 18 U.S.C. Section 4246.· See Docket Entry
10· 51.
11· · · · · ·On April 30th, 2018, Dr. Evan DuBois concluded that
12· White did not meet criteria for commitment under 18 U.S.C.
13· Section 4246.· See Docket Entry 51 at page 13 and at page
14· 14.
15· · · · · ·On May 14th, 2018, United States Magistrate Judge
16· Gates granted White's motion for a Guardian Ad Litem, and
17· recommended denying his motion to dismiss or in the
18· alternative for a competence hearing.· Thereafter, Raymond
19· Tarlton was appointed as a Guardian Ad Litem.
20· · · · · ·On September 11th, 2018, this Court entered an
21· order declining to adopt the M and R of United States
22· Magistrate Judge Gates.· See Docket Entry 95.
23· · · · · ·In that order the Court granted White's motion for
24· a competency hearing and scheduled the hearing for
25· November 29th, 2018.· The Court also ordered an examination
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 7 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 8

·1· of White under 18 U.S.C. Section 4247(b) in order to
·2· determine whether White is presently suffering from a mental
·3· disease or defect rendering him mentally incompetent to the
·4· extent that he is unable to understand the nature and
·5· consequences of the proceeding under 18 U.S.C. Section 4248
·6· against him or to assist properly in his defense.
·7· · · · · ·The Court ordered that the report be served on
·8· counsel for White, counsel for the United States, and
·9· White's Guardian Ad Litem, Mr. Tarlton.
10· · · · · ·In this Court's Order of September 11th, 2018 the
11· Court explained the textual rationale for this Court's
12· authority to order such an examination and report, to hold
13· such a competency hearing, and to provide relief if the
14· Court found White to not be competent.· See Docket Entry 95
15· at pages 7 and 8.
16· · · · · ·The government moved for reconsideration, White
17· responded in opposition and the government replied.· See
18· Docket Entries 98, 100, and 101.
19· · · · · ·On November 26th, 2018, the Court entered the
20· detailed 20-page Order denying the government's motion for
21· reconsideration.· See Docket Entry 103.
22· · · · · ·The Court explained the textual rationale within 18
23· U.S.C. Sections 4247 and 4248, for concluding that this
24· Court could receive a report concerning White's competency,
25· could hold a competency hearing concerning White, and could
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 8 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 9

·1· provide relief to White if the Court found White not to be
·2· competent.· See Docket Entry 103, at pages 2 through 11.
·3· · · · · ·The Court also explained that if the Adam Walsh Act
·4· did not permit the -- excuse me -- if the Adam Walsh Act did
·5· permit the trial and commitment of an incompetent person who
·6· contests all three elements under the Adam Walsh Act, and
·7· such a proceeding would not comport with procedural due
·8· process as applied to that person.· See Docket Entry 103, at
·9· pages 10 through 20.
10· · · · · ·On November 29th, 2018, the Court held a competency
11· hearing.· The Court heard the testimony of Dr. Hans
12· Stelmach.· Dr. Stelmach's CV is at Docket Entry 104.· He is
13· a board-certified psychiatrist and an expert witness in
14· forensic psychiatry.· The Court also received his initial
15· report concerning White's competence to be deposed.· See
16· Docket Entry 89.· And Dr. Stelmach's supplemental report
17· concerning White's competence to proceed in this Section
18· 4248 proceeding.· See Docket Entry 110.
19· · · · · ·The Court also received the report of Dr. Justin
20· Rigsbee of the Bureau of Prisons concerning White's
21· competence to proceed in this Section 4248 proceeding.· See
22· Docket Entry 102.
23· · · · · ·The court also received the testimony of Guardian
24· Ad Litem Raymond Tarlton.
25· · · · · ·The Court credits the testimony and supplemental
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 9 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 10

·1· report of Dr. Stelmach, as described in detail at Docket
·2· Entry 110.· Dr. Stelmach opined that Mr. White is a
·3· 31-year-old Native American man with fetal alcohol syndrome
·4· and a major intellectual disability.
·5· · · · · ·Dr. Stelmach interviewed White on August 10th, 2018
·6· and October 1st, 2018.· Dr. Stelmach attempted to explain
·7· the limits of confidentiality pertaining to the evaluation
·8· with White, specifically, that information from the
·9· assessment would be relayed to his attorney and summarized
10· in a written report.· The report could then be shared with
11· the Department of Justice and the Judge.· The Doctor might
12· be asked to testify on the contents of his findings and
13· implications.· The Doctor informed White that he did not
14· have to answer any questions if he was unwilling or unable
15· to do so.· White was not able to verbalize a simple
16· understanding as to the nature, purpose, and limits of
17· confidentiality pertaining to the assessment.
18· · · · · ·However, he agreed to proceed with the interview.
19· Although White, according to Dr. Stelmach, appeared to put
20· forth effort, he was considered an unreliable historian
21· based on his significant intellectual disability.· White
22· stated to Dr. Stelmach that he was at Butner for a
23· four-month period to restore competency to go to court.
24· · · · · ·Dr. Stelmach opined that White was unable to retain
25· the concepts that they were discussing and instead
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 10 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 11

·1· regurgitated past information about a four-month study that
·2· was not accurate.· Mr. Stelmach recounted in his report
·3· materials that were available for review and that he did
·4· review in preparation for his opinion.· This information is
·5· recounted at Docket Entry 110, pages 2 and 3.· Part of what
·6· he had with respect to his supplemental report was the
·7· forensic evaluation of Dr. Rigsbee, dated October 22nd,
·8· 2018.
·9· · · · · ·Dr. Stelmach's report recounts the background,
10· history, and psychological development of White.· White was
11· born in Crow Agency, Montana.· His mother was a teenager
12· when she became pregnant with him.· White was born
13· prematurely and diagnosed with fetal alcohol syndrome due to
14· intrauterine alcohol exposure.· White subsequently had both
15· physical and intellectual development delays.
16· · · · · ·Peggy White and Gary Big Hair adopted White when he
17· was five days old, due to his biological mother's inability
18· to care for him due to alcohol and drug abuse.· At age one,
19· White had surgical intervention for either renal or liver
20· dysfunction due to fetal alcohol syndrome.· White was
21· enrolled in special education classes and received a
22· certificate of attendance after completing the 12th grade.
23· White has been on disability, receiving supplementary social
24· security income since he was a child and has never been
25· gainfully employed.· White has never been convicted of a
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 11 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 12

·1· crime.
·2· · · · · ·White has been repeatedly evaluated as Dr. Stelmach
·3· recounts in his report and has been found to be
·4· intellectually disabled.· Dr. Stelmach's report recounts
·5· that in 2012, White underwent a psychological evaluation,
·6· including an assessment under the Wechsler Adult
·7· Intelligence Scale, Fourth Edition.· White scored in the
·8· first percentile on intelligence, meaning that 99 percent of
·9· the population would score higher than White with his full
10· scale intelligence quotient of 56.
11· · · · · ·He also completed a Wide Range Achievement Test,
12· Fourth Edition, and was determined to have first grade math
13· level, a second grade spelling and sentence comprehension
14· level, and a third grade reading level.
15· · · · · ·In 2016, White underwent intelligence testing by
16· Dr. Pinuto (ph), on the WAIS 4, White obtained a full scale
17· intelligence quotient of 55.· White has had no incident
18· reports at FMC Butner and is housed in an open mental health
19· unit.
20· · · · · ·White told Dr. Stelmach that he was being held at
21· FMC Butner for study for four months, there's a group, a
22· four-month group.· White was alert and oriented to person,
23· place, year, and month and date, he knew his birthday but he
24· could not tell Dr. Stelmach how old he was.· He was unable
25· to perform simple money calculations, for example, he could
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 12 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 13

·1· not subtract $5 minus $1, he did not know that there were
·2· four quarters in a dollar, but he did know the number of -·3· and he did not know the number of dimes or nickels in a
·4· dollar.· He had limits on his attention, concentration, and
·5· memory.· He could not answer most questions.· He stated to
·6· the Doctor that he could not write or read.· He often simply
·7· said, quote, hard for me to explain, can't think that well,
·8· hard to understand, I don't know what to do, end quote.
·9· · · · · ·According to Dr. Stelmach, his thought process was
10· clearly impoverished, his mood was confused, his affect was
11· shallow, he denied having auditory or visual hallucinations.
12· · · · · ·White was administered questions from the
13· competence assessment for standing trial for defendants with
14· mental retardation, the so-called CAST-MR.· The CAST MR was
15· designed specifically to test the competency of individuals
16· already diagnosed as mentally retarded to assist in their
17· legal defense.· The CAST-MR consists of three sections that
18· evaluate the individual's understanding of basic legal
19· terms, the respondent's ability to assist in their own
20· defense, and open-ended questions regarding the respondent's
21· specific case asked orally by the examiner.
22· · · · · ·The test questions have a high validity score and
23· because the test is specifically designed for those who have
24· already been diagnosed as mentally retarded, the test can
25· provide an analysis into the minds of intellectually
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 13 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 14

·1· disabled persons that most other tests are not designed to
·2· reach since most other psychological tests and interviews
·3· are designed for individuals with normal intellectual
·4· functioning.
·5· · · · · ·For portions of the assessment White was given two
·6· answers to each question and struggled to pick either
·7· answer.· He was asked whether a witness is someone who sits
·8· on the jury or instead is someone who saw a crime.· White
·9· was unable to choose between these two answers.· He could
10· not answer what happens when he goes to court.· White could
11· not define the role of the Judge.· He could not decide if
12· the Judge is a person who defends you or the person that
13· decides the case.· White could not determine the role of a
14· jury, he could not decide if the jury was a group of people
15· who decide on the facts of the case or if the jury were
16· individuals that give answers for the other side.
17· · · · · ·Although White knew that his lawyer was a person
18· named Jackie, he did not know any of his attorneys' last
19· names.· He could not tell if his lawyers were there to solve
20· a crime or to take his side.· White did not know the role of
21· a prosecutor.· He could not differentiate between whether
22· the prosecutor is someone who attempts to defend him in
23· court or tried to prove him guilty.
24· · · · · ·White could not tell the difference between a
25· medical term or a legal process.· When asked which of these
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 14 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 15

·1· more closely define the legal term for, quote, hearing, end
·2· quote.· White could not define a criminal sentence.· He
·3· could not distinguish between whether the definition was the
·4· amount of money one would pay an attorney or the amount of
·5· time that he would spend in jail.· White did not know
·6· whether a crime was when one goes to jail or when one breaks
·7· the law.· White did not know what it means to be guilty.
·8· White could not tell the difference between whether guilty
·9· meant that the prosecutor proved that someone was guilty or
10· that someone got arrested for something.
11· · · · · ·White did not know the meaning of innocent.· He
12· could not tell the difference between whether this meant
13· that the prosecutors could not prove guilt or that someone
14· who perpetrated a crime was sorry that it happened.· White
15· could not tell what penitentiary meant, that when one was
16· found guilty, the Judge would order a sentence for that
17· individual to serve or if people did not like that
18· individual and they wanted to get rid of that individual and
19· that they would send that individual away.· He did not know
20· if a penitentiary meant that he was in school or in prison.
21· · · · · ·White could not tell if a felony meant that a very
22· serious crime had been committed or if a felony was a person
23· who talks in court.· White could not define a misdemeanor
24· and he could not tell the difference if this meant that the
25· crime committed was minor or a training program.· He did not
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 15 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 16

·1· know the meaning of pleading guilty.· He could not decide if
·2· guilt meant that someone said that they committed a crime or
·3· someone was acquitted of a crime.· White did not know the
·4· definition of time served.· White had difficulty choosing
·5· between whether or not this meant how fast he was going or,
·6· instead, how long he had been in jail.
·7· · · · · ·White did not know the definition of probation and
·8· could not distinguish between whether or not this meant that
·9· one reports to an officer instead of going to jail or rather
10· one has to stay in jail for a very long time.· White did not
11· know the definition of a plea bargain and could not tell the
12· difference between whether or not this meant to make a deal
13· for a lesser sentence or instead to have a jury trial.
14· White did not know the definition of acquitted and could not
15· decide if this meant that one would be sent to jail or
16· instead that one was found not guilty.
17· · · · · ·White did not know the definition of maximum
18· sentence and could not choose between whether or not this
19· meant the most time one can serve or rather the least time
20· one can serve.· White did not know the definition of a fine.
21· White could not choose between whether or not this meant
22· this was time served in jail or money paid to a court.
23· White could not define a minimum sentence, White could not
24· choose between if this meant the least time one would serve
25· or the most time that one would serve.
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 16 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 17

·1· · · · · ·White was unaware that he had a Guardian Ad Litem
·2· appointed despite being explained the role of a Guardian Ad
·3· Litem, he was unable to repeat or retain the definition or
·4· concept.
·5· · · · · ·Mr. Tarlton credibly testified as an aside that he
·6· had met for approximately two hours or two occasions, one
·7· hour each time, with Mr. White.· Mr. White, obviously, did
·8· not recall that.
·9· · · · · ·Dr. Stelmach's report at Docket Entry 110, also
10· discussed at length assessments under Adaptive Functioning
11· Assessment.· He administered the Vineland Adaptive Behavior
12· Scale, Second Edition.· This scale measures the personal and
13· social skills of individuals from birth into adulthood
14· because adaptive behavior refers to an individual's typical
15· performance of the day-to-day activities required for
16· personal and social sufficiency.· These scales assess what a
17· person actually does rather than what he or she is able to
18· do.
19· · · · · ·A Vineland 2 assesses adaptive behavior in four
20· domains:· Communication, daily living skills, socialization,
21· and motor skills.· It also provides a composite score that
22· summarizes the individual's performance across all four
23· domains.· Dr. Stelmach's report contains the results for
24· White at pages 8 and 9.
25· · · · · ·The Vineland 2 indicated that White's adaptive
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 17 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 18

·1· behavior composite standard score of 22 summarizes his
·2· overall level of adaptive functioning.· His level of
·3· adaptive functioning within the communication domain is low
·4· for his age group.· He had an adaptive level of low for all
·5· three subdomains, receptive, expressive, and written.· His
·6· expressive skills represent a strength, his receptive skills
·7· represent a weakness compared to his other communication
·8· skills.· The report then goes on to provide further detail
·9· associated with this.
10· · · · · ·Dr. Stelmach also considered the report of Dr.
11· Rigsbee, an evaluator at FMC Butner, Dr. Rigsbee's report is
12· in the record, it's dated October 22nd, 2018.· Dr. Rigsbee
13· concluded that White is currently suffering from a mental
14· disease or defect which renders him unable to understand the
15· nature and consequences of the proceedings against him or to
16· assist properly in his defense.· As for White's prognosis,
17· Dr. Rigsbee opined that White's prognosis with regard to
18· restorability to competency is poor.· As Dr. Rigsbee stated,
19· an intellectual disability is a condition that is unamenable
20· to change.· While White has demonstrated cooperation with
21· directions when given, he will continue to need assistance
22· from others in order to manage his activities of daily
23· living.
24· · · · · ·Dr. Stelmach's report contains two diagnoses.· The
25· first diagnosis is fetal alcohol spectrum disorder.· As Dr.
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 18 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 19

·1· Stelmach explains, these disorders are a group of conditions
·2· that occur in a person whose mother drank alcohol during
·3· pregnancy.· Problems may include an abnormal appearance,
·4· short height, low body weight, small head size and features,
·5· poor coordination, low intelligence, behavior problems, and
·6· problems with hearing or seeing.
·7· · · · · ·Those affected are more likely to have trouble in
·8· school, legal problems, participate in high risk behaviors,
·9· and have trouble with alcohol or other drugs.· The most
10· severe form of the condition is known as fetal alcohol
11· syndrome.· Dr. Stelmach gives greater detail associated with
12· this at page 10 of his report.
13· · · · · ·According to Dr. Stelmach's opinion in his report,
14· at Docket Entry 110, page 11, White's primary psychiatric
15· diagnosis is most likely a direct result of fetal alcohol
16· syndrome, which reasonable medical certainty, Dr. Stelmach
17· persuasively opined that White's primary psychiatric
18· diagnosis as defined by the Diagnostic and Statistical
19· Manual of Mental Disorder, Fifth Edition, is intellectual
20· disability, moderate to severe.
21· · · · · ·Intellectual disability, as Dr. Stelmach explained,
22· is a disorder with onset during the developmental period
23· that includes both intellectual and adaptive functioning
24· deficits and conceptual social and practical domains.· The
25· following three criteria must be met:· First, deficits in
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 19 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 20

·1· intellectual function, such as reasoning, problem solving,
·2· planning, abstract thinking, judgment, academic learning,
·3· and learning from experience.· Confirmed by both clinical
·4· assessment and individualized standardized intelligence
·5· testing.
·6· · · · · ·Two, deficits in adaptive functioning that result
·7· in failure to meet developmental and sociocultural standards
·8· for personal independence and social responsibility, without
·9· ongoing support, the adaptive deficit limit functioning in
10· one or more activities of daily life, such as communication,
11· social participation, and independent living across multiple
12· environments, such as home, school, work, and community.
13· · · · · ·Three, onset of intellectual and adaptive deficits
14· during the developmental period.
15· · · · · ·White has a full scale IQ of 55 or 56 and has
16· struggled in school and in sustaining employment.
17· · · · · ·Dr. Stelmach's report provides a detail associated
18· with all of these issues concerning this diagnosis and the
19· Court credits the diagnosis of Dr. Stelmach that White has
20· intellectual disability, moderate to severe, as recounted at
21· pages 12 and 13 of his report at Docket Entry 110.
22· · · · · ·In his final opinion and recommendations, Dr.
23· Stelmach opines that White has major deficits in cognition
24· that impairs decision-making, comprehension, and recall, all
25· of which impact his decision capacity to manage affairs of
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 20 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 21

·1· person and property, impairs ability to give testimony,
·2· impairs ability to stand trial and assist in his own
·3· defense.· Dr. Stelmach persuasively opines that White does
·4· not understand the nature of the proceedings against him
·5· under Section 4248.
·6· · · · · ·White has poor recollection of chronological
·7· events, he has very poor recall overall and is easily
·8· confused.· He repeats statements that were told to him in
·9· the past which are no longer factual, for example, his
10· belief that he is presently at FMC Butner for four months of
11· competency restoration.· White's ability to differentiate
12· between factual recall and statements that he has heard in a
13· competency restoration class or when receiving discovery,
14· for example, is impaired.
15· · · · · ·White lacks the ability to recall personal
16· knowledge of events that he would need to convey to a
17· Guardian Ad Litem for that Guardian Ad Litem to assist him
18· in any way, particularly in defending against the first
19· element in an Adam Walsh Act case under 18 U.S.C. Section
20· 4248.· White does not understand and lacks the ability to
21· properly communicate historical facts accurately.· He does
22· not understand the role of a Guardian Ad Litem.· White lacks
23· the capacity to testify as a witness in a 4248 proceeding.
24· The truthfulness of his testimony would be unreliable.· This
25· impairment is not volitional, it is due to White's
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 21 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 22

·1· intellectual disability.
·2· · · · · ·Dr. Stelmach persuasively opined that in his
·3· professional opinion, White is not able to understand the
·4· nature of the Section 4248 civil commitment proceedings
·5· against him, and is not able to assist counsel in defending
·6· these proceedings.
·7· · · · · ·Dr. Stelmach also opines that in light of White's
·8· severe intellectual and adaptive functioning deficits, it is
·9· Dr. Stelmach's opinion that White is not competent to be a
10· party to any litigation under any standard, civil or
11· criminal.
12· · · · · ·As for Dr. Rigsbee's report, that too is in the
13· record, at Docket Entry 102, as is Dr. Stelmach's initial
14· report at Docket Entry 89.· Dr. Stelmach's report at Docket
15· Entry 89 also persuasively explained why White was not
16· competent to give a deposition.· He then, obviously,
17· expounded that on his report at Docket Entry 110.
18· · · · · ·Dr. Stelmach also persuasively testified during the
19· competency hearing why White could not be restored to
20· competence through medication.
21· · · · · ·As for Dr. Rigsbee's report, the report is at
22· Docket Entry 102, was filed with the Court on November 7,
23· 2018, it's dated October 22nd, 2018.· Dr. Rigsbee did not
24· interview White as part of his evaluation but the lack of an
25· interview is not material to his findings.· Dr. Rigsbee's
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 22 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 23

·1· report records the material that he reviewed at pages 2 and
·2· 3, including the forensic evaluation authored by Dr.
·3· Stelmach, dated August 22nd, 2018, is in the record at
·4· Docket Entry 89.
·5· · · · · ·Dr. Rigsbee's report recounts the mental status
·6· evaluation associated with Mr. White and also does a medical
·7· psychiatric review at pages 3 and 4.· Dr. Rigsbee also
·8· recounts the variety of psychological testing that has been
·9· conducted on White over the course of a number of years.
10· · · · · ·For example, Dr. Rigsbee's report recounts that
11· while White was at the FDC CTAC in Washington during 2012,
12· he was administered the Wechsler Adult Intelligence Scale,
13· Fourth Edition, an objective measure of intellectual
14· functioning.· The result of the WAIS 4 reflected that White
15· was in the extremely low range of intellectual functioning,
16· attaining an estimated full scale intelligence quotient and
17· general ability index score of 61.· These scores placed him
18· in the first percentile indicating that 99 percent of the
19· individuals his own age would score better than White.· His
20· score in the four indices were verbal comprehension, 63;
21· perceptual reasoning, 67; working memory, 55; and processing
22· speed, 62.· Each of these index scores fell into the
23· extremely low range of intellectual functioning and there
24· was no significant difference between these index scores.
25· · · · · ·The results of the WAIS 4 were noted to be
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 23 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 24

·1· inaccurate as to White's true intellectual functioning
·2· according to Dr. Rigsbee.· Dr. Rigsbee also recounted
·3· various other tests conducted on White over the course of a
·4· number of years, including a test by Dr. Weaver, O'Connor,
·5· Pinuto, and Ms. Corr (ph), where White was administered the
·6· WAIS 4 and the word reading subtest.· On that WAIS 4 he
·7· obtained an FS IQ of 55, which fell into the impaired,
·8· extremely low range.· Dr. Rigsbee's report then recounts the
·9· details associated with that report and other
10· neuropsychological testing done on Mr. White.
11· · · · · ·The report also recounts various assessments of
12· individual adaptive functioning, and Dr. Rigsbee opined at
13· page 6 that White's history, as reflected in the records he
14· had reviewed, appeared to establish that White does have an
15· intellectual disability.· White -- excuse me -- Dr. Rigsbee
16· opined that the intellectual disability was mild as between
17· Dr. Rigsbee and Dr. Stelmach's.· The report credits the
18· opinion of Dr. Stelmach and finds that the intellectual
19· disability of Mr. White is moderate to severe.
20· · · · · ·Dr. Rigsbee's report then ultimately answered the
21· question the Court had asked to be assessed and Dr. Rigsbee
22· opined as follows:· That White's history reflects he has
23· demonstrated only limited factual knowledge of the roles of
24· trial participants, he has not demonstrated an understanding
25· of the circumstances surrounding prior or current
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 24 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 25

·1· allegations, the adversarial nature of the proceedings or
·2· the possibility of any penalties if he is convicted.· That's
·3· according to Dr. Rigsbee.
·4· · · · · ·The results of prior evaluations suggest White
·5· would not demonstrate an understanding of the consequences
·6· in the event he is civilly committed under Section 4248.
·7· While he appears to have demonstrated the ability to
·8· remember certain facts surrounding legal proceedings, White
·9· has been unable to formulate a complete understanding of
10· such facts, such as, what the members of a jury actually
11· assess or what would occur in the event of a hung jury.
12· Despite various attempts of providing White with education
13· on the trial process within the Bureau of Prisons, White
14· continues to be unable to apply factual information about
15· the court to his own legal situation.· There does not appear
16· to have been a noted improvement in his functional ability
17· since his prior competency evaluations.
18· · · · · ·More recent forensic evaluations where he was
19· examined under Section 4248 describe him as a low20· functioning individuals -- a low-functioning individual who
21· had difficulties articulating basic current information,
22· such as the reason why he was presently at FMC Butner.
23· · · · · ·Additionally, it was also conveyed he had poor
24· social skills and needed others to help him function in an
25· appropriately social manner.· He requires the assistance of
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 25 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 26

·1· his peers to help him write letters and communicate with
·2· others, has problems with social judgment, demonstrates
·3· impairment in managing his finances, and has never lived
·4· independently.
·5· · · · · ·According to Dr. Rigsbee, this evidence suggests
·6· that the features of his intellectual disability have not
·7· improved to the point where he would be able to understand
·8· the nature and consequences of the civil proceedings against
·9· him or properly assist in his defense.· According to Dr.
10· Rigsbee, it is his opinion that White is currently suffering
11· from a mental disease or defect which renders him unable to
12· understand the nature and consequences of the proceedings
13· against him or to assist properly in his defense.
14· · · · · ·Dr. Rigsbee also opined that White's prognosis with
15· regard to restorability to competency is poor, as Dr.
16· Rigsbee opined, intellectual disability is a condition that
17· is unamenable to change.· Although White has demonstrated
18· cooperation with directions when given, he will continue to
19· need assistance from others in order to manage his
20· activities of daily living.
21· · · · · ·In sum, White is currently suffering from a mental
22· disease or defect, that is, intellectual disability,
23· moderate to severe, which renders White unable to understand
24· the nature and consequences of the Section 4248 proceeding
25· against him and to assist properly in his defense in the
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 26 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 27

·1· Section 4248 proceeding.
·2· · · · · ·White also suffers from fetal alcohol syndrome.
·3· Doctors cannot medicate White to attain competency and
·4· multiple efforts to help White attain competency through
·5· therapy have not worked due to White's intellectual
·6· disability.
·7· · · · · ·The Court credits the testimony and reports of Dr.
·8· Stelmach and finds that White is presently suffering from
·9· mental disease or defect, that is, intellectual disability,
10· moderate to severe, rendering him mentally incompetent to
11· understand the nature and consequences of the Section 4248
12· proceeding against him and to assist properly in his defense
13· in this Section 4248 proceeding.
14· · · · · ·White also suffers from fetal alcohol syndrome.
15· The Court rejects the government's argument that competency
16· is never relevant in a Section 4248 proceeding, as explained
17· at length in this Court's Order of November 26th, 2018, at
18· Docket Entry 103.· Competency is relevant in a Section 4248
19· proceeding where the respondent contests all three elements
20· under the Adam Walsh Act.
21· · · · · ·Furthermore, the Adam Walsh Act permits a Court to
22· dismiss a Section 4248 proceeding against an incompetent
23· person who contests all three elements.· See Docket Entry
24· 103, at pages 2 through 11.
25· · · · · ·Alternatively, if the Adam Walsh Act does not
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 27 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 28

·1· permit a Court to dismiss a Section 4248 proceeding against
·2· an incompetent person who contests all three elements under
·3· the Adam Walsh Act, then permitting such a trial and ensuing
·4· commitment would violate procedural due process as applied
·5· to that person.· See Docket Entry 103, at pages 10 through
·6· 20.
·7· · · · · ·Given that White is incompetent and cannot attain
·8· competency via medicine or therapy and that White contests
·9· all three elements under the Adam Walsh Act, the Court
10· grants White's motion to dismiss the Section 4248 proceeding
11· and dismisses without prejudice this Section 4248
12· proceeding.
13· · · · · ·The government's case against White under 18 U.S.C.
14· Section 4246 remains pending before the Honorable W. Earl
15· Britt.· See United States v. White, 5:18-hc-2295-BR, Eastern
16· District of North Carolina.
17· · · · · ·I've signed an order incorporating by reference my
18· findings and conclusions.
19· · · · · ·I thank counsel for their work in connection with
20· the case.
21· · · · · ·Anything from the United States?
22· · · · · ·MR. DODSON:· No, Your Honor.· But, just to be
23· clear, White is being remanded to custody pending the 46
24· proceeding?
25· · · · · ·THE COURT:· Correct.· He is Judge Britt's person
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 28 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 29

·1· now.· This case -- he is not in my court under 4248 as of
·2· right now.
·3· · · · · ·MR. DODSON:· Understood.· We just -- the government
·4· just wanted to ensure that if -- if such a ruling were
·5· coming from the Court, which sounds like it's not, we just
·6· request a stay of that so we can consider whether to appeal
·7· or consult the Department of Justice to get such
·8· authorization.
·9· · · · · ·THE COURT:· You mean, if he were getting out?
10· · · · · ·MR. DODSON:· Right.· So, I mean, we just want to
11· make sure that any -- any release would be stayed pending -12· · · · · ·THE COURT:· Right.· I didn't order him to be
13· released.· I said that he is now subject to the proceeding
14· under 4246, so I would expect y'all to get on Judge Britt's
15· docket.
16· · · · · ·MR. DODSON:· Thank you, Your Honor.
17· · · · · ·THE COURT:· I do thank y'all for your work.
18· · · · · ·Anything else, Ms. DiLauro?
19· · · · · ·MS. LITTLE:· Can we heard very briefly?
20· · · · · ·THE COURT:· Okay.
21· · · · · ·MS. LITTLE:· This is maybe hyper-technical, but out
22· of an abundance of caution, my understanding was that the
23· last ruling from the Court has been that our motion to
24· dismiss was dismissed without prejudice, in the Court's
25· Order at Docket Entry 95.· In light of this Court's Order on
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 29 of 31

YVer1f

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 30

·1· competency, we would just ask that that motion be renewed so
·2· that it could be granted today.
·3· · · · · ·THE COURT:· Okay.· It's -- it's -- well, I -- even
·4· though they removed the gavel, in my mind, it was still
·5· pending, and so to the extent that the clerk's office's
·6· removal of a gavel next to a motion means that it's not
·7· pending, I always considered it to be pending.· That's why
·8· we were having this hearing.
·9· · · · · ·MS. LITTLE:· Thank you, Your Honor.
10· · · · · ·MS. MAHAN:· Thank you, Your Honor.
11· · · · · ·MR. DODSON:· Thank you, Your Honor.
12· · · · · ·(The foregoing proceedings concluded at 2:44 p.m.)
13
14
15
16
17
18
19
20
21
22
23
24
25
www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 30 of 31

UNITED STATES vs. OLIVER LEE WHITE
HEARING on 12/06/2018

Page 31

·1· · · · · · · · · · · · · ·CERTIFICATE
·2· STATE OF NORTH CAROLINA
·3· COUNTY OF WAKE
·4
·5· · · · · ·I, Suzanne G. Patterson, the officer before whom
·6· the foregoing proceeding was taken, do hereby certify that
·7· said hearing, pages 2 through 30, inclusive, is a true,
·8· correct and verbatim transcript of said proceeding to the
·9· best of my ability.
10· · · · · ·I further certify that I am neither counsel for,
11· related to, nor employed by any of the parties to the action
12· in which this proceeding was heard; and further, that I am
13· not a relative or employee of any attorney or counsel
14· employed by the parties thereto, and am not financially or
15· otherwise interested in the outcome of the action.
16· · · · · ·Dated this 18th day of December, 2018.
17
18
19
20· · · · · · · · · · · · · · ·________________________
· · · · · · · · · · · · · · · ·Suzanne G. Patterson
21· · · · · · · · · · · · · · ·Registered Professional Reporter
22
23
24
25

www.huseby.com
Huseby, Inc.· Regional Centers
800-333-2082
Charlotte ~ Atlanta ~ Washington, DC ~ New York ~ Houston ~ San Francisco

Case 5:17-hc-02162-D Document 116 Filed 12/18/18 Page 31 of 31

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 1 of 16

EXHIBIT 5
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6181

UNITED STATES OF AMERICA,
Petitioner - Appellant,
v.
OLIVER LEE WHITE,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Raleigh. James C. Dever III, District Judge. (5:17-hc-02162-D)

Argued: May 8, 2019

Decided: June 18, 2019

Before NIEMEYER, DIAZ, and RICHARDSON, Circuit Judges.

Reversed and remanded with instructions by published opinion. Judge Niemeyer wrote
the opinion, in which Judge Diaz and Judge Richardson joined.

ARGUED: Benjamin M. Shultz, UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C., for Appellant. Jaclyn Lee DiLauro, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Raleigh, North Carolina, for Appellee. ON BRIEF: Joseph H.
Hunt, Assistant Attorney General, Mark B. Stern, Civil Division, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C.; Robert J. Higdon, Jr., United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Raleigh, North Carolina,
for Appellant. G. Alan DuBois, Federal Public Defender, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Raleigh, North Carolina, for Appellee.

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 2 of 16

NIEMEYER, Circuit Judge:
With its filing of a certificate in the district court that Oliver White is a “sexually
dangerous person,” the government commenced this civil proceeding under 18 U.S.C.
§ 4248 to commit White to the custody of the Attorney General. After ordering and
receiving a mental examination of White, the district court found that White was
“mentally incompetent to understand the nature and consequences of the section 4248
proceeding against him and to assist properly in his defense in the section 4248
proceeding” and therefore dismissed the proceeding. A proceeding under § 4248 would
have required the government to prove that White (1) “engaged or attempted to engage in
sexually violent conduct or child molestation,” (2) “suffers from a serious mental illness,
abnormality, or disorder,” and (3) “would have serious difficulty in refraining from
sexually violent conduct or child molestation if released.” Id. § 4247(a)(5), (6). The
district court held that § 4248 “permits a court to dismiss a section 4248 proceeding
against an incompetent person who contests all three elements” and alternatively that
“permitting such a [§ 4248 proceeding] and ensuing commitment would violate
procedural due process as applied to that person.”
On appeal, the government contends that the district court erred in both rulings,
and we agree. We therefore reverse the district court’s judgment and remand with
instructions to conduct a hearing on the § 4248 proceeding initiated against White.

2

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 3 of 16

I
White, now 31, is an intellectually disabled Native American man who was born
in Crow Agency, Montana. His biological mother could not care for him because she
abused alcohol and drugs, and he suffered from fetal alcohol syndrome. With an IQ of 55
or 56 and elementary math and reading skills, he struggled in school and in gaining
employment.

As one doctor summarized, White’s “thought process was clearly

impoverished, his mood was confused, [and] his affect was shallow.”
In 2009, when White was 21, a federal grand jury in the District of Montana
indicted him for the sexual abuse of four female minors under the age of 12. The
government, however, dismissed the charges as part of a deferred prosecution agreement
in which White agreed to reside with his mother and have no further contact with minors.
In 2012, a federal grand jury in the District of Montana indicted White for a
second time, charging him with abusive sexual assaults of female minors under the age of
12. After White was found incompetent to stand trial, the court dismissed the charges
and released White to his family.
On July 22, 2016, for a third time, a federal grand jury in the District of Montana
indicted White, charging him with aggravated sexual abuse of female minors under the
age of 12. Again, after White was found incompetent to stand trial, the court dismissed
the charges.
While White was in custody at the Federal Medical Center in Butner, North
Carolina, for a mental examination in connection with the 2016 charges, the government
filed a certificate in the district court under 18 U.S.C. § 4248(a), certifying that White
3

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 4 of 16

was a “sexually dangerous person” and petitioned the court to commit White to the
custody of the Attorney General. In its certificate, the government pointed to the past
charged conduct and to psychological assessments of White to claim that White was a
“sexually dangerous person” under § 4248.
After receiving the certificate, the district court directed the Federal Public
Defender to represent White and appointed a licensed psychiatrist as a mental health
examiner of White. White’s counsel then filed motions for the appointment of a guardian
ad litem, to dismiss the § 4248 certificate filed against him, and, in the alternative, for a
competency hearing, contending that White’s mental incompetence would preclude
subjecting him to a § 4248 hearing.
The district court granted the motion to appoint a guardian ad litem and, before
conducting a § 4248 hearing, ordered a competency hearing “to determine whether White
is presently suffering from a mental disease or defect rendering him mentally
incompetent to the extent that he is unable to understand the nature and consequences of
the proceeding under 18 U.S.C. § 4248 against him or to assist properly in his defense.”
In ordering the competency hearing, the court overruled the magistrate judge, who
recommended that White’s motion for a competency hearing be denied because §§ 4241
and 4248 contemplate commitment for individuals in White’s “exact situation.”
After conducting the competency hearing, the court determined that “White [was]
currently suffering from a mental disease or defect, . . . which render[ed] White unable to
understand the nature and consequences of the § 4248 proceeding against him and to
assist properly in his defense in the § 4248 proceeding.” Given that White contested all
4

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 5 of 16

three elements of § 4248 — (1) that he had previously “engaged or attempted to engage
in sexually violent conduct or child molestation”; (2) that he “suffers from a serious
mental illness, abnormality, or disorder”; and (3) that as a result, he “would have serious
difficulty in refraining from sexually violent conduct or child molestation if released,” 18
U.S.C. § 4247(a)(5), (6) — the court expressed concern, particularly because White
contested the element requiring proof of prior conduct, that “the respondent face[d] the
prospect of indefinite commitment arising from a trial focused on both his past conduct
and present mental condition even though he lack[ed] the capacity to understand the
section 4248 trial or to participate rationally in his defense.” Concluding that § 4248
allowed it to dismiss the § 4248 proceeding “against an incompetent person who contests
all three elements” and alternatively that conducting a § 4248 proceeding would violate
White’s constitutional right to procedural due process, the court granted White’s motion
to dismiss the proceeding.
From the district court’s judgment dated December 6, 2018, the government filed
this appeal.

II
We address first whether § 4248 or any other related provision in Chapter 313 of
Title 18 permits a district court to dismiss a § 4248 proceeding against a person because
he is mentally incompetent.
Section 4248 was enacted in 2006 as part of the Adam Walsh Child Protection and
Safety Act of 2006, Pub. L. No. 109-248, 120 Stat. 587, to “protect children from sexual
5

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 6 of 16

exploitation and violent crime,” id., in the context of a “growing epidemic of sexual
violence against children,” H.R. Rep. No. 109-218, pt. 1, at 20 (2005). The provision
was included as an addition to Chapter 313 of Title 18 (18 U.S.C. §§ 4241–4248), which
addresses “Offenders with Mental Disease or Defect.” Section 4248 itself was included
as “a modest addition to a set of federal prison-related mental-health statutes that have
existed for many decades,” and it “focuses directly upon persons who, due to a mental
illness, are sexually dangerous.” United States v. Comstock, 560 U.S. 126, 137, 141
(2010).
Section 4248 provides that after the government files a certificate with a district
court that a person “is a sexually dangerous person,” the court “shall order a hearing” to
determine whether the person is indeed a sexually dangerous person.
§ 4248(a).

18 U.S.C.

For a person to be found “sexually dangerous,” the government must

demonstrate that the person (1) has “engaged or attempted to engage in sexually violent
conduct or child molestation”; (2) “suffers from a serious mental illness, abnormality, or
disorder”; and (3) “would have serious difficulty in refraining from sexually violent
conduct or child molestation if released.”

18 U.S.C. § 4247(a)(5), (6); see also

Comstock, 560 U.S. at 129; United States v. Antone, 742 F.3d 151, 158 (4th Cir. 2014).
If the court finds, “by clear and convincing evidence,” that the person is a sexually
dangerous person, then it must commit the person to the custody of the Attorney General,
id. § 4248(d), who is charged to treat the person and release him if and when a court
finds, by a preponderance of the evidence, that the person is no longer dangerous or no
longer dangerous under prescribed conditions of release, id. § 4248(a), (d), (e).
6

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 7 of 16

Section 4248 makes no provision for the release of a person subject to a
government certificate because the person is “mentally incompetent.” Indeed, § 4241(d)
indicates otherwise.

Under that section, which addresses hearings for mental

incompetency in the context of criminal proceedings, if the person is found mentally
incompetent “to the extent that he is unable to understand the nature and consequences of
the proceeding[s] . . . against him or to assist properly in his defense,” the court must
commit him to the Attorney General for hospitalization. 18 U.S.C. § 4241(d). And if
hospitalization does not sufficiently alleviate the condition — i.e., if the person is
unlikely to regain competency — “the defendant is subject to the provisions of . . .
§ 4248.” Id. And § 4248 accordingly provides for civil commitment following a hearing
if the court finds that the person is sexually dangerous. Id. Indeed, § 4248 explicitly
recognizes its role following a hearing under § 4241 for mental incompetency. See id.
§ 4248(a) (addressing persons committed to the custody of the Attorney General
“pursuant to § 4241(d)”). There is little doubt that § 4248 applies to persons found
mentally incompetent under § 4241.
Of course, to read into these provisions a defense that a mentally incompetent
person who is sexually dangerous cannot be committed to the custody of the Attorney
General under § 4248 would defeat the core purpose of the statute — to protect the public
from sexually dangerous persons. Under such a reading, a mentally incompetent person,
who had raped women on three separate occasions, but never stood trial for the rapes
because he was mentally incompetent, could not be removed from society under § 4248,
thus leaving the public with the very risk that § 4248 was designed to eliminate. See
7

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 8 of 16

Comstock, 560 U.S. at 141 (noting that § 4248 is designed to protect the public from
mentally ill individuals who are sexually dangerous); United States v. Comstock, 627
F.3d 513, 520 n.2 (4th Cir. 2010) (recognizing that criminal defendants found mentally
incompetent to stand trial are appropriately subject to § 4248 proceedings because they
“may have committed the criminal offense due to their mental illness or incompetence”).
Chapter 313 of Title 18 explicitly recognizes the problem of mentally incompetent
persons who are dangerous to society, providing expressly for their commitment, whether
they are simply dangerous persons (addressed by § 4246) or sexually dangerous persons
(addressed by § 4248). In both circumstances, commitment is subject to the procedures
and safeguards expressly provided in each of those sections.
In this case, the district court, after receiving the government’s § 4248 certificate,
determined to conduct an initial hearing to determine whether White was mentally
competent. The government objected to such a hearing because the need to determine
mental incompetency related legally only to criminal proceedings and a finding under
§ 4241 that one was mentally incompetent would not address any requirement for
commitment under § 4248.

The court overruled the objection and conducted a

competency hearing, after which it concluded that White was indeed mentally
incompetent. The court thereupon dismissed the § 4248 proceeding without a § 4248
hearing because, as it explained, White was unable to understand the nature and
consequences of the proceeding and to assist properly in his defense. But in conducting a
mental competency hearing and not a § 4248 hearing, the court failed to recognize that

8

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 9 of 16

Chapter 313 authorizes a § 4248 hearing for persons found mentally incompetent under
§ 4241.
While all hearings under Chapter 313 are governed by § 4247(d) — see, e.g., 18
U.S.C. § 4241(c); § 4246(c); § 4248(c) — a hearing to determine incompetency is
authorized by § 4241, which the district court did not explicitly recognize, although that
was noted by the magistrate judge. And the court’s conclusion that White’s mental
incompetence precludes his being subject to a § 4248 hearing is in tension with both
§ 4241(d) and § 4248(a). Section 4241(d) explicitly authorizes a § 4248 hearing for a
person found mentally incompetent and whose condition has not improved with
hospitalization. And § 4248(a) provides that § 4248 is applicable to persons found
incompetent under § 4241(d). In short, if a person is found mentally incompetent under
§ 4241 and is not likely to get better, he still remains subject to confinement under § 4248
if he is found “sexually dangerous.” Id. § 4248(a). With this interaction of § 4241 and
§ 4248, we cannot conclude that somehow § 4248 authorizes a court to dismiss a § 4248
proceeding because the person is mentally incompetent. There is simply nothing to
suggest that a mentally incompetent person who is certified to be sexually dangerous
must be released because “he is unable to understand the nature and consequences of the
proceedings against [him] or assist properly in [his] defense.” Id. § 4241(a). Indeed, to
so conclude would eviscerate the core purpose of § 4248.
We therefore hold that Chapter 313 of Title 18, and § 4248 in particular, did not
authorize the district court to dismiss the § 4248 proceeding against White on the ground
that he was found to be mentally incompetent.
9

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 10 of 16

III
The district court separately worried whether the § 4248 proceeding against White
would violate the Due Process Clause in that White “face[d] the prospect of indefinite
commitment” based on “both his past conduct and present mental condition even though
he lacks the capacity to understand the [§ 4248 proceeding] or to participate rationally in
his defense.” In particular, the court focused on White’s ability to defend against proof of
his prior conduct under the statute’s requirement that the government show that he had
“engaged or attempted to engage in sexually violent conduct or child molestation.” 18
U.S.C. § 4247(a)(5). It stated:
The central focus of the first element under the Adam Walsh Act looks
back in time and requires the United States to prove by clear and
convincing evidence at least one instance of actual or attempted sexually
violent conduct or child molestation. In nearly every Adam Walsh Act
case, the respondent does not contest the first element, and the United
States simply presents a judgment of conviction from a criminal case where
the respondent was convicted of actual or attempted sexually violent
conduct or child molestation. In this case, however, White has never been
convicted of any crime, much less actual or attempted sexually violent
conduct or child molestation. Thus, . . . in this section 4248 proceeding, the
United States will have to present witnesses and evidence concerning the
first element. The United States also will present arguments to the court
seeking to persuade the court that the United States has proven that White
has engaged in at least one instance of actual or attempted sexually violent
conduct or child molestation. Likewise, . . . White will have the
opportunity to challenge the government’s evidence and witnesses
concerning the first element, present his own evidence and witnesses, and
present arguments to the court seeking to persuade the court that the
government has failed to prove that White has engaged in at least one
instance of actual or attempted sexually violent conduct or child
molestation.

10

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 11 of 16

(Footnote omitted). The court thus reasoned that an incompetent person contesting the
prior-conduct element “effectively loses [his] statutory rights because he lacks the ability
to rationally understand the proceeding against him or communicate with his counsel
about the factual allegations at the heart of the first element’s factual inquiry,” concluding
therefore that such a § 4248 proceeding “would not comport with procedural due
process” and citing Mathews v. Eldridge, 424 U.S. 319 (1976). Mathews requires the
application of a test weighing (1) White’s liberty interest; (2) the risk of an erroneous
deprivation of that interest under current procedures; and (3) the government’s interest
and burden of providing any additional procedure that would be required. See id. at 335.
White, of course, agrees with the district court, contending that committing him as
an incompetent person who contests the prior conduct element violates his right to
procedural due process. Applying the Mathews test, he describes his liberty interest as
profound. He describes the risk of erroneous deprivation as “enormous” because, “in
support of a meaningful adversarial process, the statute provides that a respondent is
entitled to counsel, and that he will have the ‘opportunity to testify, to present evidence,
to subpoena witnesses on his behalf, and to confront and cross-examine witnesses who
appear at the hearing.’ But Mr. White cannot do any of those things.” (Quoting 18
U.S.C. § 4247(d)). And addressing the government’s interests, he argues that they are
“not significant in this case” because the government “may not serve those interests by
assuming that a person in Mr. White’s position is sexually dangerous.”
Thus, we are presented with the novel question of whether § 4248 violates the Due
Process Clause insofar as it requires White, a mentally incompetent person, to defend
11

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 12 of 16

against allegations of past bad sexual acts while he does not understand the proceedings
and cannot assist in his defense.
It is, of course, well established that the Constitution does not permit a mentally
incompetent person to be subject to a criminal trial, see Indiana v. Edwards, 554 U.S.
164, 170 (2008), or a mentally incompetent person to be indefinitely civilly committed
solely on account of his incompetency, Jackson v. Indiana, 406 U.S. 715, 720, 738
(1972). But the Constitution does permit the indefinite civil commitment of a mentally
incompetent person who is also dangerous. See Greenwood v. United States, 350 U.S.
366, 373–75 (1956). Nonetheless, particular aspects of civil commitment statutes have
been subject to constitutional challenges over the years.
In Addington v. Texas, 441 U.S. 418 (1979), the Supreme Court held that the
clear-and-convincing standard of proof, rather than the preponderance-of-the-evidence
standard, must be applied in a civil commitment proceeding. Id. at 427–33. Also, in
Comstock, the Court held that Congress’s enactment of § 4248 was authorized by the
Constitution’s Necessary and Proper Clause. See 560 U.S. 126. And on remand of
Comstock, we held that § 4248’s requirement that past bad sexual acts need only be
proved by clear and convincing evidence rather than beyond a reasonable doubt, does not
violate the Due Process Clause. See Comstock, 627 F.3d 513. But no court, as far as we
are able to ascertain, has held that it is unconstitutional to subject an incompetent person
to indefinite civil commitment under § 4248 when the person challenges all three
elements for such commitment, especially the prior-conduct element.

12

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 13 of 16

The parties agree that the relevant analysis should be governed by Mathews. See
Addington, 441 U.S. at 425 (applying the Mathews framework to the due process analysis
of a civil commitment statute). Mathews holds that a due process challenge is governed
by a three-factor balancing test, weighing (1) the private interest affected by the official
action; (2) the risk of an erroneous deprivation with the procedures presently used; and
(3) the government’s interest, including the function involved and the fiscal and
administrative burdens associated with additional procedures. Id. at 335.
When we consider the first of Mathews’ three factors, there is no dispute that
White’s liberty interest is extraordinarily weighty. A civil commitment “for any purpose
constitutes a significant deprivation of liberty.” Addington, 441 U.S. at 425. We accept
that proposition as foundational.
In a similar vein, when we consider the third Mathews factor, we agree with the
district court that the government has an “important and substantial interest in delivering
mental health care to sexually dangerous persons who are in federal custody and [in]
protecting the public from such individuals.”

See Addington, 441 U.S. at 426

(recognizing that the State has a parens patriae interest in an individual’s mental health
and “authority under its police power to protect the community from the dangerous
tendencies of some who are mentally ill”). Again, we accept this as a weighty factor.
But the dispute between the government and White in this case focuses on the
second Mathews factor — whether, when a person is mentally incompetent, the process
afforded in § 4248 allows too great a risk of an “erroneous deprivation of [the private]
interest through the procedures used.” 424 U.S. at 335.
13

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 14 of 16

To be sure, White as a mentally incompetent person, cannot be subject to criminal
liability. But the procedures provided in this case are, we conclude, constitutionally
sufficient to commit him in a civil proceeding. In a § 4248 proceeding, the government
must, as White has repeatedly noted, prove that he previously engaged in sexually violent
conduct or child molestation. And because that proof implicates historical facts, White’s
mental incompetency does indeed present him with a challenge in responding to the
government’s case because he is unable to assist in his defense.

Nonetheless, we

conclude that the risk of an erroneous deprivation of White’s liberty interest is
substantially and adequately mitigated by the broad array of procedures required for a
§ 4248 commitment, particularly as they apply to incompetent persons.
First, the statute requires that White have counsel, and in this case, he was not
only appointed counsel, he was also provided a guardian ad litem to look after his
interests and assist his counsel. See 18 U.S.C. § 4247(d).
Second, the court must conduct a hearing, and White’s counsel must be able to
subpoena witnesses, present evidence, and cross-examine the government’s witnesses at
that hearing. See id. § 4248(a), (c); id. § 4247(d).
Third, the government must prove the necessary elements, including White’s prior
conduct, by clear and convincing evidence, a burden of proof greater than the
preponderance-of-the-evidence standard that is routine in civil proceedings.

See id.

§ 4248(d).
And fourth, the risk that an erroneous factual finding of prior sexual violence or
child molestation will result in civil commitment is substantially mitigated by the
14

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 15 of 16

personal observations and opinions of professionals that are required to prove that White
is “sexually dangerous to others” in that he “suffers from a serious mental illness,
abnormality, or disorder as a result of which he would have serious difficulty in
refraining from sexually violent conduct or child molestation if released” — showings
that the government is required to make. Id. § 4247(a)(5), (6).
In addition, any order of commitment under § 4248 is subject to correction by
multiple mechanisms afforded by the statute. The government must file an annual report
concerning White’s mental condition with recommendations as to the need for continued
commitment. See 18 U.S.C. § 4247(e)(1)(B). Moreover, White’s counsel can seek a
video recording of the interview of White upon which the annual report is based to assist
in the district court’s review of White’s commitment following such reports. See id.
§ 4247(f). Also, White’s counsel can, “at any time” after the first 180 days, file a motion
to have a court determine whether he should be released. See id. § 4247(h). And as
important, when the director of the facility to which White has been committed
determines that he is no longer sexually dangerous, with conditions or not, the director
must promptly certify that fact to the court. See id. § 4248(e). Finally, White retains the
right to challenge the legality of his detention at any time by filing a petition for a writ of
habeas corpus, which is explicitly preserved. See id. § 4247(g).
Under these procedures, it is difficult to conceive of circumstances where a person
such as White would be wrongfully committed, although we recognize there is always
some degree of risk inherent in any type of adversary proceeding, including a § 4248
proceeding. As we explained on remand in Comstock, the Supreme Court approved the
15

USCA4 Appeal: 19-6181

Doc: 55

Filed: 06/18/2019

Pg: 16 of 16

constitutionality of the commitment scheme before it in Addington because “layers of
professional review and the concern of family and friends provided continuous
opportunities for an erroneous commitment to be corrected.” 627 F.3d at 521 (cleaned
up). And we concluded that § 4248 “offers the same sort of professional review and
opportunity for correction of an erroneous commitment” by mandating discharge “as
soon as a person ceases to pose a danger to others.” Id.
At bottom, while White’s liberty interest is surely one of the most important to
protect under the Constitution, the government’s police power is also important when
exercised to protect the public from persons found to be unable to control their sexual
dangerousness. The balance struck by § 4248 in serving these interests is, we conclude,
constitutionally sufficient under the Due Process Clause and Mathews.
Accordingly, we reverse the judgment of the district court and remand with
instructions that the court promptly conduct a § 4248 hearing to determine whether White
is sexually dangerous and therefore must be committed to the custody of the Attorney
General.
REVERSED AND REMANDED
WITH INSTRUCTIONS

16

USCA4 Appeal: 19-6181

Doc: 62

Filed: 08/16/2019
EXHIBIT 6

Pg: 1 of 1

FILED: August 16, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-6181
(5:17-hc-02162-D)
___________________
UNITED STATES OF AMERICA
Petitioner - Appellant
v.
OLIVER LEE WHITE
Respondent - Appellee
___________________
ORDER
___________________
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Diaz, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

USCA4 Appeal: 19-6181

Doc: 65

Filed: 09/04/2019
EXHIBIT 7

Pg: 1 of 1

FILED: September 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-6181
(5:17-hc-02162-D)
___________________
UNITED STATES OF AMERICA
Petitioner - Appellant
v.
OLIVER LEE WHITE
Respondent - Appellee
___________________
ORDER
___________________
Upon consideration of submissions relative to the motion to stay mandate,
the court denies the motion.
Entered at the direction of the panel: Judge Niemeyer, Judge Diaz, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

